<html>
<title> - BAILEY, KEYS, AND MAINELLA NOMINATIONS</title>
<body><pre>[Senate Hearing 107-176]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-176

                 BAILEY, KEYS, AND MAINELLA NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 on the

 NOMINATIONS OF VICKY A. BAILEY, NOMINEE TO BE ASSISTANT SECRETARY FOR 
              INTERNATIONAL AFFAIRS AND DOMESTIC POLICY, 
 DEPARTMENT OF ENERGY; JOHN W. KEYS III, NOMINEE TO BE COMMISSIONER OF 
THE BUREAU OF RECLAMATION; AND FRANCES MAINELLA, NOMINEE TO BE DIRECTOR 
                      OF THE NATIONAL PARK SERVICE

                               __________

                             JUNE 27, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-085                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
BLANCHE L. LINCOLN, Arkansas         JIM BUNNING, Kentucky
                                     PETER G. FITZGERALD, Illinois
                                     CONRAD BURNS, Montana

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel

                                     
                                     
                                     
                                     
                                     
                                     

Note: Senator Bingaman assumed the Chairmanship on June 6, 2001.


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................    22
Bailey, Vicky A., Nominee to be Assistant Secretary for 
  International Affairs and Domestic Policy, Department of Energy    15
Bayh, Hon. Evan, U.S. Senator from Indiana.......................     7
Bennett, Hon. Robert F., U.S. Senator from Utah..................     6
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........    24
Craig, Hon. Larry E., U.S. Senator from Idaho....................     7
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Graham, Hon. Bob, U.S. Senator from Florida......................     5
Keys, John W. III, Nominee to be Commissioner of the Bureau of 
  Reclamation....................................................    13
Lugar, Hon. Richard G., U.S. Senator from Indiana................     8
Mainella, Frances, Nominee to be Director of the National Park 
  Service........................................................    10
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     2
Nelson, Hon. Bill, U.S. Senator from Florida.....................     4

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    45

 
                 BAILEY, KEYS, AND MAINELLA NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 27, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The committee will come to order. This 
morning our hearing is on President Bush's nomination of 
Frances Mainella to be the Director of the National Park 
Service; John Keys, to be the Commissioner of Reclamation; and 
Vicky Bailey, to be the Assistant Secretary of Energy for 
International Affairs and Domestic Policy. Without objection, 
the written testimony of each witness and the committee 
questionnaire and the financial disclosure statements will be 
submitted for the record.
    Let me call on Senator Murkowski for any opening statement 
that he has at this point.
    Senator Murkowski. Looks like, Mr. Chairman, we have got 
some signs up there that suggest we are going to have some 
members do some introductions, but----
    The Chairman. We are if they arrive. If they don't arrive, 
we will do without them.
    Senator Murkowski. All right. Well, that is fair enough for 
me. We have got one that has arrived.
    The Chairman. Do you want to make any statement before we 
hear from the members. Why don't you sit down, Senator Nelson, 
and you can hear Senator Murkowski's statement and then we will 
hear from you.
    [A prepared statement from Senator Domenici follows:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    Mr. Chairman, I appreciate these individuals appearing before us 
today, because these nominations are critical not only to their 
respective agencies, but also to our state of New Mexico. In 
particular, the Department of the Interior is still the one cabinet 
department in which only the Secretary has been confirmed. This is 
particularly distressing considering the broad mission of the 
Department and its wide jurisdiction which includes our national parks, 
water issues, American Indians, public lands, and preservation of our 
nation's resources.
    I firmly believe that the individuals appearing before us today 
will greatly benefit the Department of the Interior and I fully support 
each nominee.
    With the federal government managing over 30 percent of the land in 
New Mexico, much of what the Department does directly impacts New 
Mexico. Both the Park Service and the Bureau of Reclamation play large 
roles in New Mexico parks and water issues.
    New Mexico has been very fortunate having just had Eluid Martinez 
as the Bureau of Reclamation Commissioner. We are proud of Eluid's 
service with the Bureau. It was always comforting to know that we had a 
Commissioner who understood the challenges associated with western 
water issues. I still believe it is critical that the Bureau administer 
its numerous initiatives to help the Western states meet their water 
needs while balancing the multitude of competing uses of water in the 
West.
    I also look forward to working with the two other nominees, Ms. 
Bailey on energy policy issues and Ms. Mainella on maintaining our 
National Parks. Given the importance of water, parks and energy to New 
Mexico, it is vital that the Energy and Interior Departments have 
experienced, educated and informed officials to carry out desired goals 
and missions.
    I am proud to report that the three nominees before the committee 
today bring vast amounts of knowledge and experience to the 
Departments. They have remarkable expertise in their respective fields. 
I am certain that they will serve the Department of Energy and the 
Department of the Interior with pride. I look forward to working with 
each of them on issues critical to New Mexico.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thanks, Jeff. I am certainly pleased 
that we scheduled this hearing today. I think we have three 
well-qualified nominees. Vicky Bailey is, of course, no 
stranger to this committee. She has been endorsed twice before 
when she served as Commissioner of FERC, at FERC I should say 
and will certainly be a great asset to the Department of 
Energy. Her knowledge and contribution has high expectations.
    Mr. Keys has testified before the committee and has a long 
and distinguished record of the Bureau of Reclamation and a 
record of reaching out on all sides and managing the Bureau's 
projects in the Northwest. I am pleased to see some of the 
families here as well.
    Ms. Mainella has certainly a distinguished career in park 
and resource management, including recognition by her peers, 
and service as president of the National Association of State 
Park Directors and of the National Recreation and Park 
Association has worked with our staff on issues over the years. 
I appreciate the pace at which the committee is attempting to 
hold these hearings, but I am troubled by the situation on the 
floor of the U.S. Senate.
    It is my understanding that the Majority Leader intends to 
hold nominations until the organization resolution is resolved, 
and I could not disagree more with that procedure. I fail to 
see how hamstringing the Federal agencies advances any public 
policy. We have a situation currently in the Department of the 
Interior where we have one individual who has been confirmed, 
and that is the Secretary. I am even more troubled that the 
leadership continues to object to a time agreement on Steven 
Griles, so that once--it seems like we should be able to move 
that particular nomination.
    Let me elaborate for the record on the facts. Steven 
Griles' chronology suggests that the intent to nominate was on 
March 9 of this year. The nomination was received on May 1 of 
this year. Would the staff please pick up Senator Graham's 
name--thank you.
    He was reported favorably out of this committee by a vote 
of 18-4 on May 23. All this was before Senator Jeffords made 
his announcement on May 24. We immediately began to try and 
move this nomination. The minority also tried to get a time 
agreement, and in checking with the floor staff, we find that 
Griles was cleared on the Republican side on May 23. In an 
executive session on May 23, we moved one nomination. On May 
24, we moved 19 nominations. On May 25, we moved 33 
nominations. On May 26, we moved eight nominations. In each 
case, Griles was cleared on our side but objected to by the 
Democrats.
    During this period, a unanimous consent agreement was 
ordered to allow for 2 hours of debate and a vote. The 
Democrats had said they needed 2 hours with consideration and 
as a consequence, the week we returned from the recess, that 
was rejected again by the Democrats, as was a modification that 
deleted the time certain and only included the time limitation. 
At that point it was clear that obviously the Democrats would 
control the floor, and the timing on our return from that 
recess.
    An Executive Order--on June 14, we cleared three additional 
nominations, but the Democrats again would not agree on Griles. 
As of today, Griles has been pending 36 days without even a 
time agreement. I would also note that even if the Majority 
Leader wants to hold consideration of further nominees hostage 
to the reorganization resolution and agreement on time for 
debate has nothing to do with the resolution and the actual 
schedule of the debate.
    I think the record will note when the Clinton 
administration was in power, we did move the nominations. We 
did not attempt to delay them and while I don't dispute the 
issue on the resolution with regard to the nominations, I think 
the record is quite clear on Griles. Griles should be cleared 
because he was moved prior to the takeover by the new majority.
    I wanted to make that note so that the record would clearly 
indicate what's going on here, and that is an effort to 
withhold nominees and in the particular issue of Griles, use 
him as an excuse to throw him in with the rest of the nominees 
and clearly that is unfortunate.
    I am also troubled by the fact that we canceled our markup 
for today and I understand the Democratic leader doesn't even 
want to move out of committee markups until this resolution is 
resolved. In any event, I think it is contrary to serving the 
public and I know they say there is a simple solution, but 
Griles certainly doesn't fit into that category. Griles should 
be moved.
    I'd like to have our full committee of members in the 
Senate working together on this, as I know we all would, but I 
think it is important to point out that the Appropriations 
Committee is moving markup on the Interior bill tomorrow, so 
some committees are moving along, but maybe it is different 
when you are providing the funding for projects back home and 
when you are approving the President's nominees to administer 
these programs and projects, but I don't think there is much 
difference.
    That being said, I welcome our fellow Senators. I welcome 
the nominees, but I did want to express some frustration 
concerning Mr. Griles, who is anxious to serve the Department 
of the Interior and the public.
    The Chairman. Why don't we go ahead with statements by 
various Senators who are here to introduce nominees. I think 
I'll call on people in the order that the staff has written it 
down here. Senator Graham is here to introduce Fran Mainella, 
and why don't you go right ahead with your statement.
    Senator Domenici.
    Senator Domenici. Excuse me, Senator Graham. Could I put a 
statement in the record with about seven questions and ask that 
they be answered. This is in support of all three.
    The Chairman. We will include that in the record.
    Senator Domenici. Thank you very much, Mr. Chairman.
    The Chairman. Certainly.
    Senator Graham.
    Senator Graham. Mr. Chairman, with your permission, I would 
like to defer to my colleague, Senator Nelson, who has a prior 
commitment.
    The Chairman. We are glad to hear from Senator Nelson.

          STATEMENT OF HON. BILL NELSON, U.S. SENATOR 
                          FROM FLORIDA

    Senator Nelson. Mr. Chairman, I will be very brief, but 
just wanted to be here personally on behalf of Fran Mainella to 
tell you what an outstanding appointment this is and I know 
about which I speak, because in my previous life as the elected 
State treasurer and insurance commissioner of Florida sitting 
on the cabinet, elected cabinet of Florida, which was actually 
the group that was the official bosses of the agencies of 
government of which Mrs. Mainella was the director of Parks.
    Outstanding reviews. It was with great pleasure that 
Senator Graham and I went to the Everglades, accompanying the 
President, on the occasion of him making the announcement, and 
it was certainly an honor for me to be there and participate 
because this is an excellent appointment, and thanks to my 
colleague, Senator Graham, to let me get on to these 50 people 
that are waiting for me. Thank you, Mr. Chairman.
    The Chairman. Thank you very much for being here.
    Senator Nelson. Thank you very much.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator From Florida

    Mr. Chairman, it is my privilege to introduce and recommend Mrs. 
Fran Mainella to the Committee on Energy and Natural Resources.
    She is an accomplished and dedicated steward of Florida's parks.
    I wholeheartedly support her nomination as Director of the National 
Park Service.
    Mrs. Mainella has an exemplary record.
    Under her guidance, Florida's state park system received the 
National State Parks Gold Medal, designating Florida's parks. as the 
best in America.
    Ms. Mainella received the Senator Bob Williams Award for 
recognition of her public service, which has changed the course of 
historic preservation in Florida.
    She has served as the President of the National Association of 
State Park Directors and President of the National Recreation and Park 
Association.
    Currently, as Director of the Division of Recreation and Parks for 
the Florida Department of Environmental Protection, she oversees 155 
state parks, eight bureaus, two offices and more than 1,000 employees.
    Her vast experience and expertise make her the top candidate for 
this important position.
    Floridians value her service and appreciate the work she has done.
    Our congressional delegation supports her nomination and I have 
received many letters of support for Mrs. Mainella from people across 
the state.
    Floridians know Mrs. Mainella as a leader who works cooperatively 
and effectively with others.
    If confirmed as Director of the National Park Service, Mrs. 
Mainella will continue to inspire confidence and respect, and our 
National Park Service and public lands will flourish.
    Thank you.

    The Chairman. Senator Graham.

          STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR 
                          FROM FLORIDA

    Senator Graham. Thank you, Mr. Chairman. Mr. Chairman, it 
is a great pleasure to introduce Mrs. Fran Mainella to this 
committee. As Senator Nelson has just said, Ms. Mainella is 
known to us beyond her outstanding service, but also as a close 
personal friend. Ms. Mainella has many accomplishments. She is 
the past president of the National Association of State Park 
Directors. She is the past president of the National Recreation 
and Park Association.
    This year she won the award in Florida in recognition of 
public service for historic preservation efforts. Currently, 
Ms. Mainella serves as the director of the Division of 
Recreation and Parks of the Florida Department of Environmental 
Protection. She has held this position for 12 years.
    In that position, Ms. Mainella oversees 155 parks, 
consisting of more than 500,000 acres. Under her leadership, 
the Florida Park Service was the recipient of the 1999-2001 
gold medal award, voted America's best State park system. That 
speaks for the quality of her service.
    The Florida State park system has received this recognition 
as it has become a national model for a number of initiatives 
that I know Ms. Mainella is interested in pursuing in the 
national park system, volunteer and partnership programs. She 
created these programs at all of the major State parks and then 
created an umbrella group on a statewide basis so that one of 
the most publicly supported aspects of State government in 
Florida today are State parks.
    She has created a partnership in the parks program, a 
public-private program that has increased the service 
capabilities of our State parks. She is aware of the needs of 
our Nation's national treasures in our national parks. Under 
her leadership, the Florida State park service has worked 
closely with the superintendents of the national parks in 
Florida, as well as with local parks.
    Past superintendents of Everglades National Park and 
Biscayne National Park have praised Ms. Mainella's cooperative 
work as a model of relationships between State, local, and 
national park systems. Mrs. Mainella's nomination is fully 
supported by the Florida Congressional delegation and Mr. 
Chairman, I have a letter of support from the delegation which 
I would like to enter into the record, as well as Governor Jeb 
Bush, and I also have a letter from the Governor in support.
    In addition, my office has received numerous letters from 
local organizations in support of Mrs. Mainella's confirmation. 
I would ask that those also be included in the record.
    I am certain that if confirmed, Mrs. Mainella will provide 
important expertise and experience for the National Park 
Service as she has in the State of Florida. I think the 
President has shown great wisdom in nominating this experienced 
American for this very important position, and I urge her early 
positive confirmation.
    The Chairman. Well, thank you very much. All of those items 
have you brought with you will be included in the record, and 
we appreciate your statement very much. Senator Bennett is here 
to introduce John Keys.

       STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you, Mr. Chairman. I have the 
privilege of introducing John Keys III, who is President Bush's 
nominee to be Commissioner of the Bureau of Reclamation and 
while I am sure he did not do this deliberately, Mr. Keys has 
accumulated a political resume that should stand him in good 
stead during the confirmation process.
    Our friend, Senator Shelby, will be pleased to know that he 
was born in Alabama. He graduated from Georgia Tech. He spent a 
number of years in Idaho working where Senator Craig knows him, 
but he had the wisdom to both begin his career and then retire 
to the State of Utah, and so that is why we claim him in Utah.
    Upon graduation from Georgia Tech, he accepted his first 
position with the Bureau of Reclamation in Provo, Utah where he 
worked for the Central Utah Project and after working on the 
CUP, he worked with the Bureau in North Dakota, Montana, and 
Colorado. From 1979 to 1980, he left the field to come to 
Washington and then finished the last 18 years of his 34 year 
career with the Bureau in the Pacific Northwest Region, where 
he served as Regional Director from 1986 to 1998.
    All the time that he was doing this work in the Bureau of 
Reclamation, he found time to earn a master of science in civil 
engineering degree from Brigham Young University. He was 
awarded the Department's meritorious service award in 1984 
during the Reagan administration and the Department's ultimate 
award, the Distinguished Service Award in 1995 during the 
Clinton administration, which demonstrates I think that he has 
the capacity to work with all sides, see all sides, and make 
everybody feel good about resolving difficulties from all 
sides.
    He has worked with State governments, tribal governments, 
environmentalists and water users to fashion workable solutions 
and along the way, has received praise from groups that are as 
disparate as the Save Our Wild Salmon Coalition and Trout, 
Unlimited to the Oregon Water Resources Congress of the Idaho 
Water Users. I think it is a tribute to his willingness to 
serve that he is willing to come out of retirement from a 
delightful lifestyle in Moab, Utah, and those of you who have 
been to Moab know how attractive that can be, to come back into 
Federal service and accept the assignment as Commissioner of 
the Bureau of Reclamation.
    It is an honor for me to endorse his nomination, and to 
introduce him here today. I urge the committee to give him 
favorable and rapid consideration.
    The Chairman. Well, thank you for that strong statement. It 
sounds to me like his talents are needed in the Middle East 
instead of in Bureau of Reclamation. But let me----
    Senator Bennett. They do have water problems over there.
    The Chairman. Senator Craig wanted to make a very short 
statement also and then Senator Bayh wished to make an 
introduction as well. Go ahead.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much. I did 
want to recognize, as Senator Bennett has, John Keys in the 
audience today, and who we are considering for confirmation for 
the Bureau of Reclamation. Bob has laid it out very well. This 
man's excellent record in public service. If you look at his 
span of time in Idaho from 1986 to 1998, that is not quite as 
long as I have been in public office representing Idaho, but it 
means that all during that time, Mr. Chairman and members of 
the committee, I have had the opportunity to interface with 
John in working within his capacity as Regional Director for 
the Pacific Northwest. He is fair. He is balanced. He brings 
great expertise. He will serve us extremely well. I am proud 
that he comes before our committee.
    The Chairman. Thank you very much. Senator Bayh wished to 
make an introduction of Vicky Bailey. Go right ahead.

           STATEMENT OF HON. EVAN BAYH, U.S. SENATOR 
                          FROM INDIANA

    Senator Bayh. Thank you, Mr. Chairman. I am pleased to be 
here today as a member of this committee to urge the 
confirmation of Vicky Bailey as Assistant Secretary for 
International Affairs and Public Policy, and Mr. Chairman, I am 
pleased to report that although he could not join us today 
because of a scheduling conflict, my senior colleague from 
Indiana, Richard Lugar, feels just as strongly about Vicky's 
nomination.
    I have known Vicky Bailey for many, many years. As a matter 
of fact, in my previous life as our State's Governor, I was 
privileged to appoint her to a second term to Indiana's Utility 
Regulatory Commission where she served with distinction for 7 
years from 1986 to 1993. During that time, she took a 
leadership role on several of the national associations 
representing the electricity commissioners from across the 
country, including the National Association of Regulatory 
Commissioners and the North American Electrical Reliability 
Council.
    From her service in Indiana, Vicky moved to the national 
stage as a member of the Clinton administration. The Clinton 
administration's nominee to the Federal Energy Regulatory 
Commission, where she presided over a rapidly changing energy 
industry. In January 2000, she left public service to return to 
Indiana as president of PSI Energy, a subsidiary of Synergy, 
and the largest electric utility serving our State.
    The position to which Vicky has been nominated is a 
critically important one, and particularly so at this time. The 
Office of International Affairs and Domestic Policy will be the 
United States' primary point of contact on international 
collaboration on energy policy, including shared research, 
technology, trade, and international energy goals and energy 
diplomacy.
    As our domestic energy policy comes into focus and the 
threat of global warming must be addressed in the post-Kyoto 
environment, international collaboration has enhanced 
importance. Joint research ventures, exploring energy sciences 
and technology, the advancement of domestic energy technologies 
and the opening of international energy markets are all 
critical to our energy future.
    Domestically the Department of Energy will play a pivotal 
role in energy research and development, an area in which I am 
particularly interested, and it will serve as a foundation of 
innovative, national energy strategy. The Assistant Secretary 
will be responsible for coordinating all policy and management 
initiatives affecting science, research, and technology 
development activities.
    These are serious challenges, Mr. Chairman, with far-
reaching implications for our energy security. I am confident 
that Vicky Bailey is up to these challenges. With her 
experience in the private sector, at the State level, and at 
the Federal level, Ms. Bailey understands the challenges of 
making policies and the challenges of implementing and living 
with them.
    She is an excellent choice for the job and has my full 
support for this position. I look forward to working with Vicky 
Bailey to help to frame an energy policy that will serve the 
citizens not only of our State, but of our Nation well in the 
years to come. Mr. Chairman, I thank the committee for its 
indulgence, and I urge her swift confirmation.
    The Chairman. Thank you very much. There is a statement 
that Senator Lugar has prepared. He was not able to be here, 
but he asked if we would include this in the record, and we 
certainly will.
    [The prepared statement of Senator Lugar follows:]
 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana
    I am pleased to have this opportunity to introduce Ms. Vicky Bailey 
to the members of the Senate Committee on Energy and Natural Resources.
    I have known Vicky Bailey for many years and consider her to be a 
uniquely qualified candidate for the position of Assistant Secretary of 
International Affairs and Domestic Policy. Ms. Bailey's credentials and 
experience range from being a Commissioner of the Indiana Utility 
Regulatory Commission, a Commissioner to the Federal Energy Regulatory 
Commission, and currently president of PSI Energy, Inc., the largest 
electric utility in Indiana, and a leader in helping to formulate 
national energy and environmental policy.
    Throughout her service on both Commissions, in the private sector, 
and in the community, Vicky Bailey is known to be a true professional--
precise, fair-minded, thoughtful, and dedicated. She has extensive 
leadership and management experience and a keen understanding of the 
energy and environmental issues confronting our nation.
    Ms. Bailey has won broad bipartisan acclaim in Indiana. First 
appointed to the Indiana Utility Regulatory Commission in 1986 by 
Governor Robert Orr, she was reappointed by Governor Evan-Bayh in 1990. 
In 1993, President Clinton appointed her and in 1996, he reappointed 
her to the Federal Energy Regulatory Commission, where she became an 
expert on regulation of electric utilities.
    Ms. Bailey has established herself as a thoughtful strategic 
planner and resourceful director and liaison to federal, private, and 
academic organizations. She has consistently used her talents and 
intellect to bring people together for a common cause in order to 
effect positive change. I have always been impressed by her high level 
of dedication and commitment to public service.
    Mr. Chairman, I thank you for this opportunity to introduce Vicky 
Bailey to the Committee on Energy and Natural Resources.

    The Chairman. Why don't all three nominees come forward if 
they would at this point and we will swear them in as required 
by the rules of this committee. Would each of you please stand 
and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth.
    [Chorus of ayes.]
    The Chairman. Please be seated. Before you begin your 
statements, let me ask three questions of each nominee, will 
you be available to appear before this committee and other 
congressional committees to represent departmental positions 
and to respond to issues of concern to the Congress?
    [Chorus of ayes.]
    The Chairman. Second question, are you aware of any 
personal holdings, investments or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which have you been nominated by the President?
    Ms. Mainella. My investments, personal holdings and other 
interests have been reviewed by myself and the appropriate 
ethics counselors with the Federal Government and I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Does that same apply to you, Mr. Keys?
    Mr. Keys. Yes, sir.
    The Chairman. And to you, Ms. Bailey?
    Ms. Bailey. Yes, it does. Thank you.
    The Chairman. And are you involved or do you have any 
assets held in a blind trust? Ms. Mainella?
    Ms. Mainella. No. I do not, sir.
    The Chairman. Mr. Keys?
    Mr. Keys. No.
    The Chairman. Ms. Bailey?
    Ms. Bailey. No, I do not.
    The Chairman. Let me at this point invite each of you if 
you have any family members who have accompanied you to the 
hearing that you wish to introduce, you are welcome to do that. 
Ms. Mainella.
    Ms. Mainella. Mr. Chairman, my parents were not able to 
join me today, nor my sister, but I do have a number of friends 
here with me and other State park directors from across the 
Nation. I just appreciate having them here with me. Thank you.
    The Chairman. We are glad they were able to come. Why don't 
we have them all stand up.
    Ms. Mainella. Thank you.
    The Chairman. Mr. Keys, did you have anyone you wish to 
introduce? All right. Ms. Bailey?
    Ms. Bailey. Yes, Mr. Chairman. My immediate family members 
were unable to travel with me, but I do have today with me a 
number of friends who have either worked with me in a 
professional capacity and have thus become close relationships 
since then, and then a few personal friends as well. With me is 
Kathy Cobb, Ester Cosby, Jackie Simmons, Larry Smith, Mark 
Schaffer, Larry Bruneel, Phillip Fralin, and Jackie Caul, and I 
hope they all stood up.
    The Chairman. Well, I hope they will all stand up. All 
right. At this point, let me just give each nominee a chance to 
make your opening statement. As I indicated at the first, we 
will include your full statement in the record, but any 
comments you would like to make. Ms. Mainella, why don't you 
start.

 TESTIMONY OF FRANCES MAINELLA, NOMINEE TO BE DIRECTOR OF THE 
                     NATIONAL PARK SERVICE

    Ms. Mainella. Good morning, Mr. Chairman, Senator Murkowski 
and members of the committee. It is just a great privilege and 
honor to be sitting in front of you as the President's nominee 
as National Park Service Director. It is like a dream come true 
with our great 384 wonderful units, our crown jewels of natural 
and cultural resources available to over 285 million people. To 
be able to serve those resources if confirmed will be such a 
great honor.
    My dream of being involved with park and recreation began 
as a child when I was in Groton, Connecticut, and was in 
scouting, in Girl Scouting, by first camping and hiking. And 
from there went on to be my first job in park and recreation as 
a playground counselor working with children in playgrounds as 
I worked my way through college.
    From there, I had my, I continued to work part-time in park 
and recreation, as I taught school. I was a physical education 
teacher and did that for about 7 years and then moved to 
Florida, which is where I moved into park and recreation not 
only at a State level but in the local level and also in the 
private sector.
    I had a chance to be the executive director of the Florida 
Recreation and Park Association, which also gave me that good 
private sector experience which I think has benefited me in 
many ways. My educational training from the University of 
Connecticut and then my masters from Central Connecticut State 
College, now university, helped me I think have the skills to 
work with groups and bring people together. That has been some 
of the, I think one of the key assets I have had when I have 
been in Florida, and I hope to be able to if confirmed apply 
that here on the national parks level.
    As Senator Graham indicated, one of the top accomplishments 
that we have had in Florida State parks, and as he said I was 
there, I have been there for 12 years under three 
administrations and they are both Democrat and Republican 
administrations that I have served under, has been that we did 
achieve the greatest award, which is being voted the best State 
park system in this country, and in doing that, what it 
recognized is the fact of our resource management, our citizen 
involvement, our ability to work well with our volunteers, and 
of course, our visitors services.
    But in doing that we found that you needed to bring a team 
together, and that is a whole team, a dynamic team, and it is 
not just our great Park Service employees, but again, bringing 
together groups from outside local governments and other State 
entities, as well as our Federal partners that Senator Graham 
mentioned as far as working with our Federal, our national 
parks and other entities.
    We have found that that team development has been so 
critical in the success for Florida State parks. Again, our 
challenges are probably--we're smaller than the National Park 
System obviously and we have accomplished those so much and so 
many of those techniques that are bringing teams together, 
bringing groups together, consensus building is what is I think 
applicable as we move forward with the National Park Service 
efforts.
    As you probably heard a number of times, Secretary Norton 
foresees that communication, the ability to cooperate with each 
other, consultation, and of course, all under the name of 
conservation has been a theme that I believed in for a long 
time, long before I even had a chance to meet Secretary Norton 
and believe this is an important effort.
    Our National Park System is the envy of this world. People 
from all across the country and international visitors enjoy 
our parks. And I want to commend all those that have served our 
national parks, all our employees, all our partners as we have 
gone forward. Our national park foundation and other 
stakeholders, if I am confirmed, I look forward to working with 
those groups.
    As we reach out to people beyond just the folks that maybe 
we have normally dealt with, we need to be able to do that so 
that we know that all have had good communications, all have 
been listened to and also that we have continued to put and 
meet the major challenges ahead of us. Our ecosystem, our whole 
protection of our ecosystem, the general park management 
issues, our outdoor recreational opportunities to make sure 
they will continue to be improved and of course our 
infrastructure issues as we have addressed that through our 
maintenance backlog.
    I pledge to each and every one of you that I will commit to 
making sure that I reach out to those stakeholders, open up 
channels of communication with everyone, including all of our 
elected leaders and making sure we have a good effort in that 
direction.
    I want to work on volunteer development. I want to work 
further on improving our partnerships and enhancing them even 
beyond where they are today, and of course, also 
accountability, and I think that is an important part through 
our performance goals and other methods of accountability.
    The President has really put a focus on our national parks, 
the natural resource challenge, the elimination of the backlog, 
maintenance backlog and the establishment of partnerships 
through the land and water conservation fund or similar 
efforts. I believe this is a commitment that all of us will be 
very beneficial to our national parks. I believe and hope that 
I can play an integral part in that effort of moving things 
forward, carrying forth the Organic Act of 1916 and making sure 
that we are really in position as we move through this 21st 
century.
    I want to thank each and every one of you who have been 
able to meet with me or visit with me. You have been a great 
support, and so many of you, even members that are outside of 
this committee, have reached out to me. Also the support of 
both State and local officials, leaders from organizations from 
across this Nation, and I do pledge to you, I pledge to all of 
my supporters, to the President and to the American people, 
that I will be ready to meet these challenges that are ahead of 
us and further enhance the ability for the National Park 
Service to move forward through the 21st century. I just thank 
you for this opportunity, Mr. Chairman, and welcome any 
questions.
    [The prepared statement of Ms. Mainella follows:]

 Prepared Statement of Frances Mainella, Nominee to be Director of the 
                         National Park Service

    Mr. Chairman, Senator Murkowski, and Members of the Committee, it 
is a great privilege and special honor to appear before you today as 
the President's nominee for Director of the National Park Service, in 
the Department of the Interior. To be responsible for America's 384 
special places, her crown jewels, is an awesome challenge. Working to 
preserve and protect their natural and cultural resources for the over 
285 million visitors that enjoy them each year is a dream come true.
    My love of the outdoors began as a child in Groton, Connecticut, 
where through scouting, I went on my first camping trip and hiked my 
first trail. While I attended the University of Connecticut, I launched 
my 36-year career in parks and recreation as a summer playground 
counselor. Upon graduation, I taught junior and senior high school 
physical education and worked part-time for the Southington Connecticut 
Park and Recreation Department. I also completed my master's degree in 
counseling at Central Connecticut State College. My academic training 
and overall work experience has allowed me to develop the skills that 
are necessary to work well with a variety of groups, building consensus 
and developing very important partnerships.
    My park and recreational experiences in Florida have been on the 
local, state and private sector levels. As Executive Director of the 
Florida Recreation and Park Association, a non-profit organization, I 
worked with the many hundreds of volunteers, citizens, and numerous 
other organizations and groups to further the Association's goals.
    For the last 12 years I have served as Director of Florida State 
Parks under both Democrat and Republican administrations. Most notably, 
Florida State Parks were voted the best in the nation, achieving the 
Gold Medal Award for 1999-2001. This award is given by the National 
Sporting Goods Association, and the National Recreation and Park 
Association. This prestigious recognition reflects most positively our 
approach to resource management, citizens' involvement, innovative 
funding concepts, and the emphasis we place on visitor services. 
Building a dynamic team and working closely together to accomplish our 
mission were essential components for the award which includes our 
great employees, our 1900 partners including our concessioners and 
friends groups, our volunteers and many others.
    Florida parks, with 155 units and 16.7 million visitors, have only 
some of the challenges that face the National Park Service. Yet the 
successful techniques involved in establishing partnerships and 
bringing all stakeholders together for meaningful discussion and 
consensus building benefits all land managers. As Director of Florida 
State Parks, I biannually schedule interactive meetings with 
environmental leaders and recreation users to discuss challenges and 
goals. This process parallels Secretary Norton's 4 c's--consultation, 
cooperation, and communication, all in the name of CONSERVATION.
    America's National Park System is the envy of the world. I commend 
all those dedicated public servants that serve at our national parks. 
If confirmed, I look forward to working with staff, our partners such 
as the National Park Foundation, and other stakeholders. With the 
support of the Congress, I look forward to the challenges this position 
holds as we address park management, protection of ecosystems, 
improvement of outdoor recreational opportunities, and improving park 
infrastructures. I pledge to this Committee, Mr. Chairman, that I will 
work closely with all stakeholders, open channels of communication with 
all, including elected leaders, and all those that have a common 
interest in making our national parks the best they can be.
    Also, I pledge to work hard to improve our partnerships, volunteer 
development, and accountability through meaningful performance goals. 
The President has made a strong commitment to our national parks by 
supporting the Natural Resource Challenge, the elimination of the 
maintenance backlog, and the establishment of partnerships as reflected 
through the Land and Water Conservation Fund. I believe that by working 
with all partners and staff to achieve success, I can play an integral 
role in having the National Park Service meet the goal described in the 
Organic Act of 1916: of conserving ``. . . the scenery and the natural 
and historic objects and the wildlife and to provide for the enjoyment 
of the same in such manner and by such means as will leave them 
unimpaired for the enjoyment of future generations.''
    I am also extraordinarily grateful and appreciative of the support 
my nomination has received from Members of Congress, state and local 
officials, leaders from organizations with which I have worked and 
served. I pledge to you, to my supporters, to the President, and to the 
American people my best efforts to meet the challenges ahead, and 
further enhance the ability of the National Park Service as we move 
through the 21st century.
    Thank you. I am happy to answer any questions the Committee may 
have.

    The Chairman. Thank you very much. Mr. Keys, why don't you 
go ahead with any statement you have.
    Mr. Keys. Senator Craig and Senator Bennett, thank you for 
the generous----
    The Chairman. You might pull one of those microphones over 
there, please.

 TESTIMONY OF JOHN W. KEYS III, NOMINEE TO BE COMMISSIONER OF 
                   THE BUREAU OF RECLAMATION

    Mr. Keys. Senator Craig and Senator Bennett, I certainly 
appreciate those generous comments in the introduction. Mr. 
Chairman and Senator Murkowski, it is certainly an honor and a 
privilege to be here today, and appear before you and ask for 
your confirmation to be the next Commissioner of the Bureau of 
Reclamation. I would like to ask that my full written statement 
be made part of the record.
    The Chairman. It will be.
    Mr. Keys. Mr. Chairman, I retired from Federal service in 
1998, after working with the Bureau of Reclamation for 34 
years. During that time, I worked in the Great Basin in the 
Missouri, Columbia, and Colorado River basins. I worked at all 
levels of the Bureau of Reclamation, at the project office 
level, at the regional office level, in the engineering and 
research center and at the Commissioner's office. I enjoyed and 
learned from every one of those assignments and I believe that 
they prepared me well to handle the job of Commissioner of 
Reclamation.
    During those years of service, I had the opportunity to 
work with 10 different Commissioners of Reclamation. And I 
learned something from every one of them. Commissioner Domini 
taught me to work with the Congress. He was very successful 
with that. Commissioner Higginson taught me to work with the 
States. Commissioner Underwood taught me to work hard. 
Commissioner Beard taught me to respect the resource and how to 
change, and Commissioner Martinez taught me humility and 
service.
    The Bureau of Reclamation is a grand organization. It has 
great people there. And they have great potential to serve this 
country. In cooperation with the States, tribes, local water 
users and other stakeholders, Reclamation has a major role to 
play in the future management of the West's scarce water 
resources. It has served this country well for the past almost 
100 years and I look forward to the opportunity to help launch 
it into its next 100 years of service.
    If confirmed as Commissioner of Reclamation, I will consult 
with you and work with you. I will communicate with and work 
with your constituents, and I will look for cooperative, 
collaborative and innovative solutions to the water resources 
problems that challenge us in the Western United States. Above 
all, I will try to keep you from being surprised by any water 
resource issue that involves the Bureau of Reclamation. Thanks 
again for the opportunity to be here. I would look forward to 
answering any questions that you may have today.
    [The prepared statement of Mr. Keys follows:]

 Prepared Statement of John W. Keys III, Nominee to be Commissioner of 
                       the Bureau of Reclamation

    Mr. Chairman, Senator Murkowski, and members of the committee, it 
is an honor and indeed a privilege to appear before you today and seek 
your confirmation of my nomination to be the next Commissioner of the 
Bureau of Reclamation.
    Mr. Chairman, my entire professional career was spent working with 
the Bureau of Reclamation throughout the Western United States. The 
experiences gained working in the Great Basin, the Missouri River 
Basin, the Colorado River Basin, and the Columbia River Basin have been 
invaluable to prepare me for the challenges of working with future 
water resources problems, conflicts, and demands that we face in the 
West. I believe that I can work with all of the water users around 
Bureau of Reclamation projects to meet those challenges--the 
traditional water users who have contracts for the delivery of 
irrigation water, the municipal water users whose demands continue to 
increase, the instream flow water needs that are becoming more critical 
(for fish, wildlife, recreation, water quality control, etc.), the 
increasing demands for hydro-electric power generation, and water 
requirements that we don't even know about yet. And I believe that 
water deliveries from those facilities can be made in compliance with 
state water rights and laws and the applicable Federal rules, 
regulations, and laws.
    The last eighteen years of my work with Reclamation were spent in 
the Pacific Northwest, dealing with water service, droughts, Endangered 
Species Act requirements for stream flows, rebuilding of an aging 
infrastructure, and the changing water requirements of our society. 
Working closely with the State Legislatures (Idaho, Washington, Oregon, 
Montana, and Wyoming), the Congressional delegations, the water users, 
the Native American Indian tribes, and other water related 
organizations, we were able to meet these demands. I believe that I can 
bring that same cooperative spirit and attitude to the Bureau of 
Reclamation for its future work throughout the Western United States.
    With that background, let me share a few of my basic beliefs and 
guiding tenets with you:
    1. I believe in the Bureau of Reclamation. Its people and the 
institution itself have the character and capability to work with all 
of the water users within, around, and throughout the basins of the 
Reclamation projects to meet their water requirements. Those water 
requirements can and should be compatible. I believe that I have the 
experience, ability, and ``work togetherness'' to make that happen.
    2. I believe in State Water Rights. Bureau of Reclamation projects 
were built within them and are operated within them. Reclamation should 
work closely with the states for the best use of the projects and their 
water resources.
    3. Bureau of Reclamation facilities are a valuable asset of the 
Federal government. Generally speaking, Reclamation's dams, reservoirs, 
and hydro-electric power plants should remain in that ownership. 
Ownership of other project facilities may be appropriate for transfer 
to project beneficiaries.
    4. The Bureau of Reclamation can work within existing Federal 
rules, regulations, and laws that govern those projects and their 
operations. Some of these rules, regulations, and laws may need 
changes--if so, I would work with you to accomplish those changes.
    5. I believe in Bureau of Reclamation people. I will work with 
them, the Administration, the Congress, the states, other agencies, and 
other organizations to get Reclamation's job done and help those people 
do their jobs to their potential.
    With that said, there are a number of challenges that the Bureau of 
Reclamation faces and will have to deal with on a long and short term 
basis:
    1. Managing the limited water resources in Bureau of Reclamation 
projects for the needs of traditional water users and the expanding 
water needs of our society (domestic and municipal water use, instream 
flows, power production, fish, wildlife, water quality control, etc.)
    2. Maintaining an aging infrastructure to continue the delivery of 
water for multiple uses, provide for the generation of power, and other 
project benefits, and to protect public safety in those project areas.
    3. Dealing with power supply in the Western United States--
coordinating Reclamation power plants, power generation, and power 
marketing with other Federal agency and private power plants to meet 
project uses and power customer demands, and to provide system 
reliability.
    4. Working with other Federal agencies to meet applicable Federal 
laws, regulations, and requirements (i.e. National Environmental Policy 
Act, Endangered Species Act, Clean Water Act, water quality standards, 
etc.).
    5. Enhancing the role of the Bureau of Reclamation as a leader in 
the management and conservation of water in the Western United States--
such role would certainly go beyond the delivery of project water----

  <bullet> conservation of water and encouragement of its judicious 
        use.
  <bullet> finding innovative and effective ways to deal with the 
        drought.
  <bullet> development of recycling technology and acceptance for waste 
        water reuse.
  <bullet> working with other agencies, organizations, etc. to make 
        many uses of the same water.
  <bullet> give water users and planners a place to turn to for 
        technical advice.
  <bullet> work with the states on water allocations from Western 
        rivers and deal with those rivers that may be over allocated.

    Mr. Chairman, there are no magical answers or silver bullets that 
will make the West's water resources problems go away or make these 
tasks any easier to solve. If confirmed, I will work hard to make us 
both successful in dealing with the challenges of managing the scarce 
water resources of the West. Secretary Norton has outlined a vision for 
the Department of the Interior that includes strong support for 
conserving and maintaining our water resources. With her support and a 
strong commitment to consultation, cooperation, and communication, I 
believe that we can get the job done, and get it done right.
    Thank you for the opportunity to be here today. If there are any 
questions, I would be pleased to try to answer them.

    The Chairman. Thank you very much. Ms. Bailey, why don't 
you go right ahead with your statement.

TESTIMONY OF VICKY A. BAILEY, NOMINEE TO BE ASSISTANT SECRETARY 
 FOR INTERNATIONAL AFFAIRS AND DOMESTIC POLICY, DEPARTMENT OF 
                             ENERGY

    Ms. Bailey. Thank you, Mr. Chairman. I would ask that my 
statement be entered into the record, please.
    The Chairman. It will be.
    Ms. Bailey. My opening comments are very brief. It is a 
huge honor and privilege to be asked to join the Bush 
administration. I hope that my experience in my present 
position and my background, especially as a former State 
commissioner in Indiana and also as a Federal regulator at the 
Federal Energy Regulatory Commission will be helpful to the 
Energy Department.
    Our country faces a lot of important decisions with respect 
to future energy policy. Our Nation's economic engine depends 
on the availability of (1) reliable and (2) affordable energy. 
My mission in private industry has been the same.
    In addition to its importance to our economy, energy policy 
affects every citizen in our country, especially our Nation's 
seniors and citizens struggling to make ends meet. It is also 
important to demonstrate common sense and maintain a balance 
between our energy and our environment. And as we move forward 
to provide energy security, we need also to protect our 
Nation's resources.
    If confirmed as Assistant Secretary of Energy for 
International Affairs and Domestic Policy, I would be prepared 
to develop a team of people to give thorough analysis and 
advice to the Secretary, basically be an analytical clearing-
house, provide expert analysis and opinion on policy proposals, 
and hopefully keep the debate from being polarized, and also as 
we go along, look at how proposals affect producers, as well as 
consumers. And with those remarks, I thank you and offer myself 
for any questions.
    [The prepared statement of Ms. Bailey follows:]

    Prepared Statement of Vicky A. Bailey, Nominee to be Assistant 
Secretary for International Affairs and Domestic Policy, Department of 
                                 Energy

    Mr. Chairman and Members of the committee, I am honored for the 
opportunity to appear before you today. President Bush has nominated me 
to serve as Assistant Secretary, for International Affairs and Domestic 
Policy, United States Department of Energy. I accept his nomination 
with great pride and respect, and a great deal of humility. I pledge to 
serve the American people with all of the skill and dedication I can 
muster. They deserve no less.
    This is not the first time I have appeared before this Committee. 
In 1993, I first appeared before this Committee to receive its 
confirmation of my nomination to serve as a Member of the Federal 
Energy Regulatory Commission. As a FERC Commissioner until early 2000, 
I made subsequent appearances before this and other Congressional 
Committees to discuss various topics concerning energy policy. However, 
at no point during the past several years--perhaps not since the Middle 
Eastern oil embargo and gas lines of the 1970s--have energy issues 
dominated the headlines as they do now. In a recent poll, conducted by 
CNN/Gallup/USA Today, 94% of the American people now agree that the 
country is in a serious ``energy crisis.''
    The reasons for public concern are familiar to us all. California 
is now threatened every day this summer with rolling blackouts, and 
much of the rest of the West is similarly at risk. Consumers have 
experienced sharp increases in the price of gasoline, home heating oil, 
natural gas, and electricity. Pipelines, transmission lines, and 
refineries are aging and increasingly incapable of serving a growing 
and energy hungry population. Indeed, the health of our nation's 
economy, to which we have all grown to take for granted, is now 
threatened by energy shortages and prices.
    The challenges presented to government officials--federal, state, 
and local--with authority to address pending energy issues are truly 
daunting. I look forward to returning to Washington, D.C., and again 
taking on these challenges.
    I believe that I possess a varied--and possibly unique--perspective 
on current energy challenges. In particular, I understand the issues 
well based on the last 15 years of my professional career. Those years 
have placed me in positions of responsibility at the state and federal 
level, as well as in private industry. I will briefly explain those 
positions, and how they have offered me the opportunity to influence 
the development of energy policy.
    For seven years, starting in 1986, I served as a Commissioner on 
the Indiana Utility Regulatory Commission. (I was originally appointed 
by Governor Orr, and then reappointed by Governor Bayh.) The Indiana 
Commission regulates the retail and intrastate aspects of electricity 
and natural gas service, as well as other utility services. I know 
first hand how a decision to increase utility rates or site a 
generating plant or transmission line will affect consumer interests. I 
have always viewed the concerns of individual consumers of utility 
service as no less important than the concerns of corporate providers 
of utility service.
    For seven more years, starting in 1993, I served as a Commissioner 
on the Federal Energy Regulatory Commission. As you know, the FERC 
regulates the wholesale and interstate aspects of electricity and 
natural gas. It also exercises jurisdiction over oil pipeline rates, 
the certification of natural gas pipelines, and the licensing of 
hydroelectric facilities. During any years of service, the FERC moved 
dramatically away from its traditional (and litigation-intensive) 
review of utility revenue requirements and cost structures. In its 
place, the FERC now relies on its assessment of competitive markets and 
the opportunity to exercise market power. In my years as a FERC 
Commissioner, I supported efforts to promote non-discriminatory, open 
access to alternative energy suppliers, with the goal of allowing 
consumers additional choices and service options.
    I returned to Indiana in February of 2000. Since that time, I have 
served as President of PSI Energy, Inc. PSI, headquartered in 
Plainfield, is Indiana's largest supplier of electricity, serving 69 of 
its 92 counties. It is the Indiana operating company of Cinergy Corp. 
Cinergy serves more than 1.5 million electric customers and 500,000 gas 
customers located in a 25,000 square mile service territory 
encompassing portions of Indiana, Ohio and Kentucky.
    As President of PSI, I make business and operational decisions 
every day that affect the fortunes and lives of the Indiana businesses 
and residents it serves. My responsibility to utility consumers is to 
provide the most reliable, highest quality of utility service at the 
lowest possible rates, and with the least possible impact on the 
environment. My responsibility to utility employees and shareholders is 
to develop and grow a business that can adapt to the changing 
competitive landscape.
    I do not leave these responsibilities and tasks easily. I leave 
Indiana and return to Washington, D.C. only because of the opportunity 
to assume new challenges and to confront the energy demands of all 
Americans.
    Despite recent setbacks, I continue to believe that American energy 
consumers are best served by the competitive market. I have maintained 
this belief ever since I first joined the Indiana Commission in 1986. 
My 15 years in the business of regulating and providing energy services 
have only served to reinforce my conviction that consumers demand 
choice. I remain committed to the judgment that consumers can best 
realize competitive options and obtain lower rates and higher quality 
service through reliance on market forces.
    This is not to assume that a competitive market for energy products 
and services operates in all 50 states. Certainly, some regions--most 
notably California--suffer from markets that are not competitive and, 
perhaps, were not designed to be competitive. The goal confronting both 
legislators and regulators is to move malfunctioning markets in the 
direction of competition, and not retreat and embrace traditional 
concepts that serve only to stifle individual initiative and choice.
    I offer a Midwestern example. In the summer of 1998, the cost of 
wholesale power in portions of the Midwest skyrocketed to, at times, 
several thousand dollars per megawatt-hour. (In contrast, wholesale 
electricity prices typically average between 30 to 50 dollars per 
megawatt-hour.) The reasons for the price spikes were many and complex, 
but at bottom they rested on the simple notion of inadequate supply and 
increasing demand.
    Fast forward three years. The Midwest now has proposed ample 
supplies of power, and prices have reverted back to historical levels. 
This is all due to the fact that the energy industry has learned from 
the summer of 1998. Prices charged during that summer served as a 
signal to induce interest from investors of capital who wanted to build 
new generating facilities to serve pent-up demand. Lawmakers and 
regulators, chastened by the events of that summer, committed to 
provide the authorizations and incentives necessary to attract 
investment in new infrastructure. This is exactly how the market is 
supposed to work.
    Nevertheless, as more recent events demonstrate, responsible 
officials need not--and oftentimes must not--simply wait for 
competitive circumstances to improve as the economics textbooks say 
they inevitably will. There is much that officials can do to promote 
competition in the supply of energy services. In the short-term, 
consumers must be assured that suppliers will not be able to take undue 
advantage of developing or dysfunctional markets. Anticompetitive or 
other forms of improper behavior must be detected and remedied; market 
rules must be vigorously enforced. In the long-term, consumers must be 
assured that there will be an adequate supply of all forms of energy 
products. They must also be assured that there will be an adequate 
infrastructure in place that will enable the delivery of these products 
throughout the country.
    For these reasons, I am heartened by the efforts of this Committee 
and this Congress to advance various legislative solutions to the 
pending energy crisis. I am also encouraged by the vision and direction 
of the Administration in packaging together a portfolio of policies and 
initiatives, as enumerated in the National Energy Policy Report 
addressing both the supply and demand side of the problem, that will 
serve to promote the energy independence of the United States. I am 
particularly pleased to see that consensus has developed that the best 
way to ensure our nation's long-term energy security is to embrace, 
rather than reject, the competitive market. I agree that any short-term 
fixes must not jeopardize the long-term health of that market.
    Experience has taught me that the energy business is cyclical. To 
be sure, recent peaks and valleys have been more pronounced and 
volatile than in prior years. But I remain confident that today's 
headlines will attract--and indeed already have attracted the 
investment dollars and consumer attitudes that will allow present-day 
energy worries to recede. The task for governmental and private energy 
officials will then be to advance and carry out policies that focus on 
the long-term and that ensure that certain regions do not become overly 
reliant on only certain fuels or neglect necessary infrastructure 
enhancements.
    A related task for officials is to ensure that the United States 
does not become insular and overly isolated in its thinking on energy 
policy. As for myself, I have remained active in organizations, such as 
the European Institute, Aspen Energy Forum, The Keystone Center Energy 
Project and the Harvard Electricity Policy Group, that have focused on 
both domestic and international energy policy. The Administration has 
laid out a strategy with the National Energy Policy where several 
components focus on international concerns. If I am confirmed, I look 
forward to supporting the task force's recommendations as well as 
working with Congress on any directives they deem appropriate.
    Thank you for this opportunity and I look forward to your 
questions. 

    The Chairman. Thank you very much. Let me start with a few 
questions. Ms. Mainella, let me ask you about this Park Service 
proposal to significantly reduce the use of snowmobiles in our 
national parks. I gather there are specific proposals at Denali 
National Park and Preserve, at Yellowstone, at Grand Teton 
National Park. Are you familiar with that proposal and if so, 
do you support it?
    Ms. Mainella. Mr. Chairman, as you know, snowmobiles are 
appropriate in some of our parks and our plans are based off of 
each case by case unit and looked at in that manner. I know 
that some are also under litigation. I think there are some 
dealing with Yellowstone and Tetons that are under litigation 
and may be moving towards some type of settlement, but that is 
as much as I know at this time, but I look forward to working 
with you further as we better understand the roles of 
snowmobiles in our national parks, but again right now, they 
are being looked at on a case-by-case basis.
    The Chairman. Let me ask you about a particular project or 
program that I think has value that I have been urging more 
resources for for several years, and that is the Youth 
Conservation Corps. Back in, at the end of the 1970's, Youth 
Conservation Corps received about $60 million a year, enrolled 
about 32,000 young people each summer. We commit much less than 
that now, a few percent of that now, and enroll very few young 
people in the program.
    I would be interested in knowing your thoughts about that 
program and whether you would be willing to support higher 
levels of funding for the Youth Conservation Corps and give 
that a higher priority in the efforts of the Park Service?
    Ms. Mainella. Mr. Chairman, the youth involvement in our 
national parks is absolutely critical on all levels and the 
Youth Conservation Corps I have had experience with in the 
State of Florida as well and has done many beneficial efforts. 
I don't know, not being familiar with the actual establishment 
of the budget and hopefully I'll be working with you in the 
future in that effort, what the funding levels, what they can 
be and how we can move that forward, but I certainly believe 
that the projects the Youth Conservation Corps are so 
important, they parallel back to our Civilian Conservation 
Corps, which is the start I know of our Florida State park 
system and very instrumental in so many of our other both State 
and national parks throughout this Nation.
    The Chairman. Mr. Keys, let me ask you about what role, if 
any, you think the Bureau of Reclamation can play in dealing 
with the depletion of underground aquifers that, that in many 
cases straddle State boundaries. One in particular that we have 
a problem with in New Mexico is the Ogallala Aquifer, which of 
course Texas, Oklahoma, Kansas, Colorado and various other 
States have problems with the depletion of that underground 
aquifer. Do you believe that there is any role for the Bureau 
of Reclamation in assisting with a solution to that problem?
    Mr. Keys. Mr. Chairman, yes, there is. The Bureau of 
Reclamation has a great body of expertise in dealing with 
groundwater, both the monitoring of existing conditions, trying 
to determine trends that are happening, and trying to solve any 
problems there, and we would certainly work with the States 
involved, and with the basin commissions that might be 
involved, and see what could be done there, working closely 
with you.
    The Chairman. Let me ask, there is a lot written and stated 
these days about the fact that the time for construction of 
large water projects in the West is behind us, and that as a 
general matter, the Bureau of Reclamation has to have a 
different mission. How would you describe the mission of the 
Bureau of Reclamation as you see it?
    Mr. Keys. Mr. Chairman, the Bureau of Reclamation has a 
great history of being the great collaborator, working with the 
States, working with the tribes, working with the other Federal 
and State agencies in the water resources problems that we 
encounter. There have been several times in the Bureau's 
history where we made shifts from the large projects to working 
with water resources management. I think that is been done.
    There may still be some large projects out there. I don't 
think we should ever rule out that, but certainly we have a 
role in managing the water that is there, providing the work 
with the international community also. I think the Bureau has a 
great future in helping our country manage those water 
resources and how they are used, both for water and energy 
generation.
    The Chairman. Thank you. Ms. Bailey, let me just ask you, 
the administration is evidently in the early stages of trying 
to develop a policy that would be the administration's climate 
change policy. Secretary Abraham indicated that to us at a 
hearing we had a couple of weeks ago. What role do you expect 
to play in this new position? What role would you expect to 
play in the formulation of that policy, and what are your views 
on that?
    Ms. Bailey. Thank you, Mr. Chairman. I believe that in my 
position as Assistant Secretary of Energy for the International 
Affairs this is where this comes up the most, that is the issue 
of global climate change. I believe that my Department will 
have an instrumental role in looking at the proposals, what is 
put forward. I believe there is a cabinet level task force that 
is working on looking at alternatives to the present proposal.
    The President has said that the present proposal is not 
something that he can support, and has been in discussions with 
the other countries involved in the Kyoto, original Kyoto 
protocol, so I would look to my role being supportive, being an 
area where we would analyze the proposal, try and look at all 
sides of the issue, and be able to advise the Secretary 
accordingly.
    The Chairman. Thank you very much. My time is up.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Let me comment 
relative to concerns that have been expressed when we had 
Governor Gray Davis here about overcharges and alleged price 
spiking and so forth by various utility companies and there was 
an identification of about 505 million that was in dispute, and 
about 270-some-odd million of that was sales from BC Hydro, and 
in your capacity, Ms. Bailey, relative to the international 
aspect, can you tell us a little bit about how that works in 
relationship to the authority of the Department of Energy to 
oversee vis-a-vis FERC to set rates but when we are becoming so 
dependent on foreign sources and not that Canada is necessarily 
foreign in the sense of being a distant neighbor.
    We still have a situation where you have a willing seller 
and a willing buyer and this allegation of overcharging by BC 
Hydro is part of the falderal associated with the allegations 
but what's in your opinion the likelihood of collectibility 
from a foreign source when they are saying here is the price of 
our energy, take it or leave it?
    Ms. Bailey. I think it is very difficult from the 
standpoint of oversight and jurisdiction. I think these are the 
issues that come up. FERC has limited jurisdiction from the 
standpoint of--I believe BC hydro, there is a marketer that 
FERC has jurisdiction over in the California area. Not being 
there and not being intimately aware of all the issues in the 
details, it is difficult for me to respond, so I think I will 
say this.
    I think it is very difficult when you talk in a sense of 
refunds, knowing that probably BC Hydro and other generators in 
that area have incurred accounts receivables in that area, so 
it is very difficult to talk strictly about refunds without 
also looking at probably what is due that generator. I think 
FERC's actions last Monday in their order will help the Western 
States greatly, and I know in their settlement process, they 
are going to be addressing the issue of which you speak. 
Without having further knowledge, intimate knowledge of the 
situation, that is about all I think I can safely say.
    Senator Murkowski. Thank you. With the international 
aspects of your new position, why obviously, you will have an 
opportunity to get in there. A little weather report from Mr. 
Keys relative to your familiarity and background in the 
Northwest and the reality that so much of it is dependent on 
hydro and our understanding that levels are down 50 percent 
from what they ordinarily are and the realization of what that 
means, the balance of summer months where your run-off is 
probably pretty much over for this year and you are still 
required to maintain levels for the salmon on certain rivers.
    Can you predict all things being equal, assuming we have a 
normal summer and so forth, what we are likely to see in 
October and November and perhaps December and January as a 
consequence of our dependence on this source traditionally and 
the realization that it might be half as much power as you 
ordinarily would get. What are we looking at with California, 
Oregon, Washington, Idaho? Anybody else. Maybe Colorado. 
Montana, Wyoming, New Mexico, Hawaii, Alaska. We are okay.
    Mr. Keys. Senator Murkowski, my crystal ball is no better 
than anyone else's.
    Senator Murkowski. You have more knowledge than anybody on 
this panel, though.
    Mr. Keys. But the crystal ball of how much water is coming 
is pretty shallow at times. What I would tell you is that the 
system was used to its maximum as I understand during this past 
winter to help California and other areas out of a bind. That 
greatly stressed the system. I understand with the current 
water situation there, there is little help that can be 
available into some of those areas during this fall.
    Senator Murkowski. And? There is little help. So what 
happens?
    Mr. Keys. Well, sir, we generate power at our facilities. 
First pull on that power is for the project purposes, and then 
if there is some surplus power, we will send it to those areas 
that need it.
    Senator Murkowski. We'll say I am an aluminum company, and 
I can make more money reselling my part than I can making 
aluminum. Do you have any emergency authority to interrupt that 
agreement and make that available direct for public consumption 
as opposed to reselling?
    Mr. Keys. Senator Murkowski, I don't have any objection to 
that, but we don't market the power. Bonneville Power 
Administration is in charge of those contracts. They market all 
the power from Reclamation facilities.
    Senator Murkowski. Well, from your comments, I appreciate 
your caution, but clearly there is reason to be concerned. My 
last question will be for Ms. Mainella, and it is concerning 
one of the crown jewels in the Park Service, and that is 
Glacier Bay National Park, and I understand you have been 
there.
    Ms. Mainella. I have, sir.
    Senator Murkowski. And recognize there is a great demand 
from Memorial Day to Labor Day and the way you see the park is 
on the deck of a cruise ship and the foot print might be a 
cigar thrown over the side, but it is very minor in 
relationship to what you would have if you had other access. 
The Park Service has had an eagerness to develop its own EPA 
capability and monitoring as opposed to letting the Federal 
agencies and the State agencies monitor.
    We have always tried to initiate at least two ships a day 
in there, figuring it was the best way to see the park. I think 
we are down to 130 ships for a 90-day season. We should be at 
180. There is great reluctance not to make this another 
Yellowstone or Yosemite. In our point of view, they are 
entirely different, and you know, the best way to see it is a 
cruise ship. The public wants to come in.
    Two a day seems to be reasonable but the Park Service is 
just absolutely opposed to it for any reason conceivable that 
they can possibly come up with, and they claim that they are 
better off to establish their own monitoring, as opposed to 
using the Federal agency monitoring capability that the EPA has 
and the Coast Guard has and so forth.
    And it seems to us an effort to build another bureaucracy 
within the Park Service is totally unnecessary. I don't expect 
you to have definitive views on this, but I would like you to 
consider the merits that some of these parks have for visitors 
to see, not necessarily for the enjoyment of the Park Service 
personnel to manage. There has got to be a balance there and 
with the very short season we have, it seems to us there is a 
way to have a more reasonable approach and accommodate more of 
our visitors. Any comments?
    Ms. Mainella. Senator, I'll be glad to look further into 
that. I was under the impression that the National Park Service 
had been working on an agreement that had, where there were 
more cruise boats coming in, but that it went around legal 
concerns, lawsuits were filed and at this point, that their--
legal is taking a look at how to move forward from here.
    Senator Murkowski. The environmentalists are very much 
opposed to two a day. I can tell you that.
    Ms. Mainella. I'll be glad to look into that further, 
Senator.
    The Chairman. Senator Akaka.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I would 
like to add my welcome to the nominees, to congratulate all of 
you for your outstanding credentials that you bring to this 
hearing. I would also like to welcome your friends who have 
joined you here today.
    I have had the pleasure of meeting with Ms. Mainella, and I 
look forward to hearing your comments. Mr. Keys, I know of your 
experience with the Pacific West and I want to talk with you 
some day about the water problems in Hawaii. We do have 
droughts, too. And as you may know, last year, legislation was 
enacted making Hawaii a reclamation State. And I'd like, Mr. 
Chairman, to have my statement included in the record, my full 
statement.
    [The prepared statement of Senator Akaka follows:]

  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii

    Thank you, Mr. Chairman, I would like to add my welcome to the 
nominees and to congratulate them on the outstanding credentials they 
bring to this hearing. I would like to welcome their families as well. 
I have had the pleasure of meeting with Ms. Mainella, and I look 
forward to hearing her comments today.
    It is nice to see Mr. John Walton Keys, III, nominee for 
Commissioner of the U.S. Bureau of Reclamation. Mr. Keys, with your 
experience in the Pacific West, you may be aware that various areas 
throughout Hawaii have been experiencing severe drought, affecting 
farmers, ranchers, and residents on several islands. In addition, many 
of Hawaii's irrigation systems which were developed to service sugar 
cane fields are deteriorating and are not properly maintained to 
provide water to Hawaii's farms and ranches. As you may know, last 
year, legislation was enacted making Hawaii a reclamation state.
    I look forward to working with you on the study of Hawaii's 
reclamation needs and drought assistance planning. It is my hope that 
some of Hawaii's water concerns will be resolved with the assistance of 
the Bureau. Mr. Keys, I look forward to working with you and the Bureau 
on these issues.
    I would also like to welcome Ms. Vicky A. Bailey, the nominee for 
the Assistant Secretary for International Affairs and Domestic Policy 
in the Department of Energy. I look forward to working with Ms. Bailey 
in developing appropriate policies to address our nation's energy 
problems.

    Senator Akaka. I have some questions for Ms. Mainella. My 
first one since I have heard Senator Murkowski ask you whether 
you have been to Glacier, is if confirmed, can we count on your 
visit to our beautiful national parks in Hawaii?
    Ms. Mainella. Senator, that is an easy yes, and would be 
very pleased to do that. Yes, sir.
    Senator Akaka. Over the last 10 years, I have been an 
advocate for an increased recognition of diversity within the 
National Park System. The previous administration made a major 
commitment to reach out to diverse communities around the 
country so that our parks and those who serve as stewards of 
these places are truly reflective of our Nation.
    I have initiated studies for Park Service units that tell 
the story of Japanese-American internment camps, historic and 
cultural trails and parks in Hawaii, as well as the story of 
west coast immigration and the building and the peopling of 
America. I believe that the interpretation of how America has 
become a diverse Nation is important for us all.
    My question to you is do you see this as an important issue 
with regard to long-term preservation for our national parks 
and if so, would you make this a priority under your 
leadership?
    Ms. Mainella. Senator, the cultural diversity is an 
important part of our national parks and I know in Florida, it 
was an emphasis that we placed heavily in our Florida State 
park system. In fact, we had a cultural initiative underway in 
Florida that reached out not only to our historic sites and 
cultural sites but also to diverse groups, bringing them into 
our parks and making sure that we had that diversity as best as 
we could. I would look forward to working with you in that 
effort. I think it is very critical, particularly in the 21st 
century as we see our demographics continue to change, to work 
more closely on our cultural diversity efforts in the national 
park system.
    Senator Akaka. During both Republican and Democratic 
administrations, Congress authorized new parks to conserve our 
natural and cultural heritage. In the 106th Congress, four new 
units were created and several park expansions authorized, 
including Great Sand Dunes National Park in Colorado and Hawaii 
Volcanoes National Park. What is your view of the need to 
continue adding nationally significant resources to our 
national park system, and do you intend to place a limit on 
recommending new units?
    Ms. Mainella. Senator, the diversity, our opportunities for 
diversity in our resources and being able to have those in our 
national parks is so important to I think all of us here. At 
this time, though, as you know, we are putting a great emphasis 
on our park maintenance backlog and some of those particular 
areas, so the administration has asked that we wait, or at 
least recommend to you depending on what you choose to do, if 
we can wait for at least maybe through this session of Congress 
before we add new units.
    Now, looking at expansions and looking at getting into 
studies of those potential new units would be done on a case by 
case basis, and again, your guidance, you folks make those 
final determinations but I look forward to working with you but 
I do know we do need to continue to also work on that 
maintenance backlog. Thank you.
    Senator Akaka. I believe that eliminating the backlog of 
maintenance is important, but I also believe we must not 
jeopardize funding for the every day management and 
interpretive needs of the national parks. While visitorship is 
growing, funding to provide a quality visitor experience is 
shrinking. It has become clear that we cannot solely depend on 
appropriated monies for the day-to-day needs of the Park 
Service.
    We need to discuss a variety of different ways to assist 
the parks to raise monies. The national park stewardship bill 
includes a provision to explore a mechanism called NAFIs, or 
nonappropriated fund instrumentalities. In the past, the idea 
of parks bonds has been considered. Also the recreational fee 
demonstration program has been authorized as a pilot.
    I believe we need to assess the successes and weaknesses of 
this program, and to build on them where necessary, and I am 
interested in your views on this pilot program. What are your 
views and priorities for identifying mechanisms, including 
recreational park and other fees for augmenting the funds for 
national parks, and in addition, to increase appropriations, 
would you look favorably on them as options, user fees or other 
financial innovations?
    Ms. Mainella. Senator, thank you for being interested in 
not only the acquisition efforts, but also the operational 
sides of our national parks, not only our maintenance backlog, 
but the general every day operations. I know the people in the 
field greatly would appreciate those concerns. Also, though, I 
think that there is a lot of innovative funding. In fact, when 
we won the gold medal award in Florida, I think it is partly 
not only for our resource management and citizen involvement, 
but also for innovative funding concepts and I think there is a 
number of different ways, funding, working with our volunteers 
and partner organizations that may be able to help us as well 
as we instituted in Florida a Challenge Program where our 
friends groups, where if they raised a certain amount of money 
in the case of Florida with $60,000, then State of Florida 
matched it with $40,000 and it had to be projects, though, that 
were reflected in the unit management plan in our parks for 
Florida.
    It is been a real success story, and those kind of 
innovative concepts--bonding is something Florida has used for 
land acquisition. We have not done as much in our actual being 
able to do facilities that way but it is certainly something I 
am familiar with from other areas in the Nation working on it. 
I would look forward to working with you a lot further in that 
effort. Thank you.
    Senator Akaka. Thank you very much for your responses. 
Thank you, Mr. Chairman. I have other questions that I would 
like to submit.
    The Chairman. We will have all those other questions 
submitted for the record.
    Senator Campbell.
    Senator Burns. May I ask to submit questions. We have a 
couple of questions that we want to submit both to Mr. Keys and 
Ms. Mainella.
    The Chairman. Those certainly will be included. Thank you.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. I have a few 
questions, too, but let me just make a couple of statements 
beforehand. I think all three nominees are just eminently 
qualified and certainly support all of them and I am somewhat 
distressed that we have not been able to move some of them that 
are already on the table. I would hope that we would move these 
because I know there is a lot of important issues awaiting 
them.
    I was particularly interested in reading their backgrounds 
and I had a nice talk yesterday in fact with Fran. I was 
interested in your background and all the skills you bring, I 
have to tell you that in dealing with bringing people together 
and resolving disputes should hold you in good stead with 
Congress as a playground counselor. The last 3 days, I think in 
the eyes of many of the American people, that is what this 
place has looked like, as you probably know.
    Also I was interested in Senator Akaka's comments on 
expanding cultural--and I think diversity too within the parks. 
It is long overdue. But I think they have made great progress, 
too. I mentioned to Fran yesterday, I just came back from 
Senator Burns' State just a day before yesterday where we 
commemorated the 125th anniversary of the so-called Custer 
battle at the Little Bighorn National Monument. That is the 
place where Custer found out the Indians really wanted to be 
involved in diversity, and the Park Service up there is doing a 
marvelous job. I mean, they have, I think the interpretive 
center they have, the people they have working there.
    They have done a terrific job and I think that its also 
been reflected in the increase of people that are coming in the 
gate. It is been going up 10 to 15 percent per year. Americans 
want to know those stories and I just would encourage you to 
pursue that as Senator Akaka has suggested. I think it is 
really extremely important.
    I had a couple of questions that I wanted to ask you about 
water in a minute, but John Keys' background in the American 
West, John, you know the markup of this committee. A lot of us 
are from the West. A lot of us subscribed to Mark Twain's 
statement years ago that whiskey was for drinking and water is 
for fighting. You know, you have been out there. You know what 
it is like.
    Mr. Keys. Yes, sir.
    Senator Campbell. In that 182 that you fly, I am sure you 
are going to have lots of opportunity to get around to try and 
put out some of those disputes. You were here, involved in some 
of the battles we had on the, at the ongoing battle about the 
Animas La Plata Water Project, so important to Senator 
Bingaman's State and mine where nine agencies, two tribes, both 
States all reached agreement in 1988 to revise what had been 
passed the first time in 1968, even before you got here.
    Well, we haven't turned a shovel of dirt since you have 
been gone. We passed another bill in the year 2000 last year. 
Still haven't done one single thing. And part of it I really do 
believe is because in the past 10, 12 years the Bureau of 
Reclamation has kind of gone soft. Every time they get a threat 
of a lawsuit or any accusation or anything they just sort of 
melt in the opposition's face which is primarily the 
environmental community and they just go soft on us.
    I would hope when you take over that position that you are 
going to really take the leadership in getting that thing 
built. It is long overdue. It is getting more expensive and 
smaller all the time and there is no doubt in my mind that the 
people that are opposed to that, they don't want an agreement. 
They don't want a compromise. They want to kill the project. It 
is as simple as that. That is come through to us over and over 
and over. Those tribes have been waiting over 100 years, about 
120 years in fact for water they are entitled to under the 
treaties and under the law, too, and they have not got it yet.
    I know you know the problem we faced out there, and I just 
want to tell you I hope that you really take the leadership in 
that and get the dirt moving. Let me say to either one of you, 
I don't know who I should ask about national park status and I 
thought we had it written pretty carefully dealing with water. 
There was, there was no reserved right that was quantified, but 
there was an implied right as there is with all the parks.
    Well, now we have in those waning days in the Clinton 
administration, a filing on water. It is in the State water 
courts now. We have had over 385 letters of opposition and 
complaint, and I just wanted to know if had you had a chance to 
visit that since we talked about it?
    Ms. Mainella. Senator, I have not had a chance to visit 
that, but I promise you I will and we will get further 
briefing. I just, I am aware now of the issue and we will 
certainly look forward to working with you in the future in 
that effort.
    Senator Campbell. Well, as it is now, it is going to create 
one heck of a mess, not only on people that believe they have a 
priority right. There is some question about if more water is 
released through the canyon, would it affect the flood plains 
of the towns of Delta and Montrose. Would it effect the gold 
medal fishing that is in the streams now. It is going to be 
extremely complicated, but I'd certainly appreciate it if you 
would deal with that.
    Ms. Mainella. I will. Thank you.
    Senator Campbell. Mr. Chairman, I really have no further 
questions. I would like to submit some, though, in dealing 
primarily with water and the parks, too, that could be answered 
in writing if you could. Vicky, I have no questions for you but 
I am sure you are going to do a terrific job.
    The Chairman. Senator Craig.
    Senator Craig. Mr. Chairman, thank you. Ms. Mainella, John, 
Ms. Bailey, thank you all very much for your willingness to 
serve the American people. It is gratifying to see people of 
your integrity and quality come before us with a willingness to 
serve. We hope that it won't be dashed by an inability to get 
you into service.
    I understand there was an alumni gathering last night of 
those who might serve. Very frustrated because they would like 
to have their children into school by August. They are in the 
middle of selling houses and buying houses, and the Senate of 
the United States seems to be ignoring them, and that is really 
tragic. So I hope that you don't fall victim to that. Those who 
live in the city and are choosing different services are okay. 
Those who are in transition from homes outside of the city to 
our Nation's Capital are finding tremendous personal 
difficulties at this moment, and I hope that the Senate and our 
new leadership understand that here and we can move forward.
    Yvonne, it is nice to see you in the audience, immediate 
past director of the State park system. I trust that you are 
here in support of this fine lady. We don't have national parks 
in Idaho, Ms. Mainella, but we have national monuments. In 
fact, we have more national monuments today than we had a year 
ago, and that in itself produces some problems.
    While those monuments are loved and enjoyed, because of a 
former President's decision to expand them without thorough 
background and research, we are in some conflicts at the moment 
that you and I and others will have to resolve. For example, 
our colleague from Hawaii mentioned internment. We have an 
internment site in Idaho that we want to recognize and set 
apart for the American people and our heritage and culture to 
understand.
    Unfortunately, the declaration that produced it did not 
produce any resources to allow it to be planned, organized, and 
therefore administered. And that is a problem that we are going 
to have to deal with once you designate or you recognize and 
you anticipate an influx of citizens, it is tragic that you 
don't provide for the management of those citizens in reference 
to the potential damaging of a resource. That is a problem we 
are going to have to deal with and one that I'll visit with you 
about in the short term.
    Another short-term problem in the expansion of the Craters 
of the Moon National Monument, there we have done an 
interesting overlay of conflict between the BLM and the Park 
Service. Park Service through the monument system manages the 
rocks, but the BLM manages the grass, except that the rocks and 
the grass somewhat intermingle. There is a management plan 
attempting to be devised at this moment, and that will be key 
to some historic uses that Idahoans anticipate and our Nation 
anticipates ought to go on, that are not traditional to the 
culture of the Park Service, but are traditional to multiple 
use management within the BLM, and those are some conflicts 
that you and I must resolve, and I think this committee will 
work with you to get resolved, because those are valuable 
assets and resources, but we shouldn't create bureaucratic 
nightmares that do not serve the public or the resource well. 
They have been created, now we will have to resolve them.
    John, you are a person who has solved a tremendous amount 
of problems in your days in service to the Bureau of 
Reclamation. We have a crisis in the West at this moment. It is 
in the Klamath Basin of Oregon and California. A marvelous 
reclamation program created by our government that provides 
water for over 1,500 farm families and an entire area was shut 
off this year by a court order in conflict over a fish that I 
once considered a trash fish. The sucker.
    Environmental groups filed suit. The water--courts acted. 
The water was cut off and an entire region and economy are 
collapsing as we speak. Trees are drying. Agriculture no longer 
exists there this year, a community is questioning whether it 
can survive. That is an issue that you will have to manage on 
your watch. Those of us outside the Klamath Basin in the West 
in Idaho are fearful that this kind of disease could creep 
upstream and that the historic management of reclamation 
programs might be totally superseded by a decision in the 
courts to give a fish a priority, and shut off water to 
thousands of citizens in my State.
    Somehow, there has to be a balance. I have watched you help 
create those balances over time as it relates to continuing to 
manage reclamation projects for their original intent, but 
spreading the water and sharing it with other uses and other 
needs. What steps do you think you could take to avoid future 
Klamath Basin crises?
    Mr. Keys. Senator Craig, since I have been thinking about 
this job for several months, I have tried to find out what 
happened at Klamath, why it happened, and how it happened. I 
have been successful in finding out what happened. But so far, 
I don't know why it happened or how it happened. What I would 
tell you is that yes, sir, there has to be a change and people 
cannot afford nor can we afford the surprise that happened this 
spring again. I think it would be disastrous to us as a people 
and to my organization or to the Bureau of Reclamation should I 
be confirmed as Commissioner.
    I would promise to go to the people. I would promise to 
work with the other agencies, with the States, both of the 
States involved, and come up with a way that we can use that 
water more than once as we have done in Idaho, and the 
Northwest in the past.
    That is about as specific as I can be right now on what we 
will do, but you are absolutely right. It has to be solved 
under my watch, and it will be probably the top priority when I 
get on the job.
    Senator Craig. Well thank you very much, John. Mr. 
Chairman, I see the red light. Let me just mention in closing, 
Arrow Rock Reservoir and how we manage some of the changes 
there in light of fish versus users, or water for recreation 
versus users. Ms. Bailey, the national engineering 
environmental laboratory is in Idaho. You will play a key role 
in the overall management of it. We look forward to working 
with you in that, and I must say, Ms. Mainella, I am 
appreciative of the fact that you will ask for at least a small 
hiatus of time before we add any more additions to our park 
system that we manage what we have well and we serve people 
adequately who come to those so that we can protect the 
resources of them without just the politics of adding more to 
make it look nice on some public legislator's resume. Thank 
you.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, sir. I'll be very brief because 
as you know, there is a vote pending. I congratulate all three 
of you. I am glad you are here. I am certainly supportive, 
certainly great backgrounds for doing this job. Very briefly, 
Ms. Bailey, what would you say you are in there to be what, a 
national policy?
    Ms. Bailey. Yes.
    Senator Thomas. We have no policy from the Department. What 
will a national policy be?
    Ms. Bailey. Well, the administration, the task force has 
put out the National Energy Policy. Obviously, I have not been 
there for all the internal discussions but I hope to play a 
significant role in working with the other agencies and working 
with Congress in order to put something forward in implementing 
that policy.
    Senator Thomas. So in your view, there will be a policy, a 
national policy that comes from the Department?
    Ms. Bailey. Yes, Senator.
    Senator Thompson. Mr. Keys, again, very briefly, how do you 
intend to work with the endangered species, with EPA to 
accomplish the mission of the--of your agency?
    Mr. Keys. Senator Thomas, I have been successful in the 
past in accomplishing reclamation's goals, missions and so 
forth, and at the same time accommodating all of the Federal 
and State laws, rules, regulations that we have to operate 
under. Without a specific, I will tell you that I think we can 
do that.
    Senator Thomas. Why does the Platte River study go on for 
years and years and years?
    Mr. Keys. Senator Thomas, I am not familiar with the Platte 
River study.
    Senator Thomas. Well, my point is, not you, you have not 
been successful all the time in determining what the mission is 
and then bringing in these other things which detract from that 
mission and resolving them among the agencies.
    Mr. Keys. Senator Thomas, again, I am not familiar with the 
Platte situation but certainly I would go to the States. I 
would go to the other agencies and find out what the problem is 
and see if there is not some way to accommodate it. I just I 
don't know the specifics and I would certainly be willing to 
work with you on trying to find that out.
    Senator Thomas. My point is, same with energy. We have an 
Energy Department, but the fact is Interior and EPA have as 
much to do with progressing as does the Department of Energy, 
and the same is true with your Department. You talk about water 
missions, but these other folks have equally as much--which 
Senator Craig just talked about, so we need to work, of course, 
with that.
    I am very much interested in the parks, as you know, having 
been chairman of that subcommittee. We have a bill that we 
passed that has to do with employee training, that has to do 
with research, more information on the resources, has to do 
with concession management and prospectuses, has to do with 
business plans. Do you think you will be able to work with us 
to implement that law? There has been some movement, but we 
have not done all the things that are required in the law.
    Ms. Mainella. Senator, I look forward to working with you 
on that, and I, as you and I talked yesterday, business plans 
are very important. National Park and Conservation Association 
has assisted us I believe in some of that effort and look 
forward to working further on the business, business plan 
concept and also we brought in I believe, National Park Service 
brought in, some private sector help on our concession, tried 
to move our concessions a little bit quicker so that that can 
move along, and so hopefully when I see that report, if 
confirmed, I will be ready to move forward and help you as much 
as I can to make sure that that Act is properly completed.
    Senator Thomas. That is good. I know it is not easy to make 
movement in a large department. But I think number one, it is 
the law, and number two, it has things in there that will make 
it even better. We have one final comment. It has to do with 
access. It is already been mentioned.
    But one of the examples of access and the necessity of 
access I think is the winter access to Yellowstone Park and 
Grand Teton. And we had the Clinton administration decision 
administratively where the Department moved in and made a 
decision single-handedly right at the end of a study, and now 
we have assurance from the manufacturers that there can be 
changes in machines. You can manage them--they have not been 
managed, and it seems clear that we can provide that access 
without doing damage to the environment if we are willing to 
make the changes necessary. What's your reaction to that?
    Ms. Mainella. Senator, I guess I go back to the comments 
earlier. I know that we in the national parks, if I would be 
confirmed, would be looking at everything on a case-by-case 
basis and also as technology changes by the industry, certainly 
as we look at it on a case-by-case basis, certainly is going to 
play in, and I do know that more specifically again on the 
Yellowstone and I guess Tetons also there is a lawsuit 
situation and we will just have to follow what comes out from 
that particular guidance from the lawsuit, and if there is a 
settlement.
    Senator Thomas. Yes, well, you don't have to be guided by 
the lawsuit entirely. You can also make some decisions in the 
Department that have to do with management. You can divide 
snowmobiles from cross country skiers. You can do some things 
on size. I hope we don't manage our world just on lawsuits. 
That will be a guide, of course, and you will be directed to do 
that. So I appreciate your consideration. I think it is very 
important that we have, if we are going to have these 
facilities that the owners have access to enjoy those 
facilities. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Let me thank all the 
nominees for your testimony. I think you are well aware that 
the committee is not fully constituted now and will not be 
until we complete the organizing activity here in the Senate. 
We hope that happens soon, and once it is completed, we will 
try to act quickly on your nominations. Thank you very much. 
The hearing is concluded.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                                                      July 3, 2001.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Mr. Chairman: I want to thank you and Senator Murkowski for 
the opportunity to appear before the Committee on Energy and Natural 
Resources as the Assistant Secretary nominee for International Affairs 
and Domestic Policy at the U.S. Department of Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by members of the committee.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                      Vicky Bailey.
[Enclosure.]
      Responses of Vicky Bailey to Questions From Senator Bingaman

                             CLIMATE CHANGE

    Question 1. Do you agree that climate change policy must play a 
central role in any energy policy bill?
    Answer. Yes, I would agree that climate change must be an important 
consideration in any energy policy bill. I believe the Administration 
is considering several policy options in this area. If confirmed as the 
Assistant Secretary for Policy and International Affairs at the 
Department of Energy, I would be ready to consider the options and 
advice the Secretary accordingly. My consideration of the options would 
follow an approach that (i) would be flexible to adjust to new 
information as we learn more from science and build on it, (ii) would 
be consistent with the long-term goal of stabilizing green house gas 
concentrations in the atmosphere, and (iii) would be based on global 
participation. I believe that we should pursue market based incentives 
and spur technological innovations.

                              ELECTRICITY

    Question 2. In your prepared statement, you say that ``consumers 
must be assured that suppliers will not be able to take undue advantage 
of developing or dysfunctional markets. Anticompetitive or other forms 
of improper behavior must be detected and remedied; market rules must 
be vigorously enforced''--How might the FERC's ability to detect and 
remedy market abuses be strengthened? Will the Administration's 
electricity bill propose anything in this regard?
    Answer. FERC already possesses significant authority to detect and 
remedy market abuses. FERC has authority to conduct investigations, 
order refunds, set just and reasonable rates, rescind authority to 
charge market-based rates, and impose cost-of-service rates. With 
regard to transmission, FERC can order wheeling and enforce open access 
transmission tariffs. This year, FERC has acted aggressively to 
mitigate high electricity prices, ordering refunds, and imposing market 
mitigation and monitoring. Final decisions have not been made on the 
elements of the Administration's electricity bill, but one goal will be 
to promote effective competition in wholesale power markets.

                          TRANSMISSION SITING

    Question 3. What are your views on federal eminent domain for 
transmission siting? Do you support the development and use of regional 
authorities to site new transmission lines, either as an alternative 
to, or a necessary first step before, the use of federal domain 
authority?
    Answer. The Administration believes it is important to expand the 
strained transmission systems and remove bottlenecks. One reason the 
transmission system is constrained is the siting process. Currently, 
States site transmission facilities, even though the transmission grid 
is North American in scope. Many State laws require that the benefits 
of a transmission project accrue predominantly to the State providing 
the siting authorization. However, the benefits of grid expansion are 
often more diffused and are more regional in nature. Federal siting is 
currently available to other interstate energy projects, such as 
natural gas pipelines, oil pipelines, and hydropower projects. 
Legislation providing for Federal transmission siting need not preempt 
State siting, but could allow for Federal siting of facilities used for 
transmission of electric energy in interstate commerce in certain 
circumstances The concept of regional siting authorities is an 
interesting one that might be successful in tackling the problem if 
States were willing to voluntarily cede their authority to these 
regional bodies.
                                 ______
                                 
                                                     June 28, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my responses to the 
written questions following my confirmation hearing before the Energy 
and Natural Resources Committee on Wednesday, June 27, 2001.
    If I can be of further assistance, please let me know.
            Sincerely,
                                          John W. Keys III,
                    Commissioner, Bureau of Reclamation, Designate.
[Enclosures.]
       Responses of John Keys to Questions From Senator Bingaman

                           ENDANGERED SPECIES

    Question 1. In your role as Regional Director for the Pacific 
Northwest, you were heavily involved in issues relating to the 
Endangered Species Act and water resources.
    As Commissioner, will you commit to working with the Fish and 
Wildlife Service and the National Marine Fisheries Service so as to 
effectuate the goals and requirements of that Act?
    Answer. Yes, the Bureau of Reclamation will work cooperatively and 
collaboratively with the Fish and Wildlife Service, the National Marine 
Fisheries Service, Bureau of Reclamation contract holders, the States, 
other water users, other stake holder organizations, and other interest 
groups to effectuate the goals and requirements of the Endangered 
Species Act and to meet other obligations of the involved projects 
contracted water deliveries, power generation, minimum stream flows, 
etc.

                         WATERSHED RESTORATION

    Question 2. I understand that you have had substantial involvement 
in several initiatives pertaining to watershed restoration. Please 
describe your experience in this area. As Commissioner, would you 
expect to pursue these types of watershed efforts throughout the West?
    Answer. The mission of the Bureau of Reclamation is to manage, 
develop, and protect water and related resources in an environmentally 
and economically sound manner in the interest of the American public. 
At the heart of Reclamation's program is the daily operation of 
Reclamation's projects to provide irrigation and municipal and 
industrial water supplies, hydroelectric power, flood control and 
recreation and fish and wildlife benefits. Watersheds provide a 
geographic context for local communities to address economic and 
environmental goals. Reclamation is uniquely positioned and skilled to 
address water resource issues and multiple water needs of the West.
    Previously as Regional Director, I worked extensively with local 
watershed groups to address water related issues within the Pacific 
Northwest. Some of these restoration and improvement efforts were 
associated with traditional Reclamation projects and others were 
focused on threatened watersheds outside of those project areas. 
Examples of those efforts associated with Reclamation projects are 
Cascade Reservoir (Idaho) watershed and water quality improvement, 
Henry's Fork (Idaho) river and watershed protection improvement, 
Umatilla River Basin Project (Oregon), and the Yakima River Basin Water 
Enhancement Project (Washington). Examples of those efforts that 
focused on threatened watersheds outside of Reclamation project areas 
are Lemhi River Basin watershed improvement program (Idaho), Deschutes 
Resources Conservancy (Oregon), and Grande Ronde River watershed 
improvement program (Oregon). Work in these areas focused on 
replacement and consolidation of diversion structures, provisions for 
fish passage, acquisition and provision of water for instream flows to 
assist in protecting fish and wildlife resources, water conservation, 
water quality improvement, etc. I understand that all of these programs 
and projects are still in operation and have all been successful.
    Yes, as Commissioner, I will pursue these types of watershed 
efforts throughout the West. Reclamation's technical expertise and 
partnering capabilities can help facilitate local communities to find 
integrated solutions to complex water resources issues, and I will seek 
innovative ways to encourage these cooperative efforts.

                           MIDDLE RIO GRANDE

    Question 3. What do you believe is the solution to the difficult 
set of issues that are presented in the Middle Rio Grande? How do you 
propose to approach these issues?
    Answer. Reclamation believes that the best opportunity for a long-
term solution to these complex issues is through continuation of the 
Collaborative Program. This program, which began in January 2000, has 
brought together the stakeholders of the basin and is actively working 
toward creating an enduring process that will lead to effective 
solutions. The Collaborative Program will likely require Congressional 
legislation to provide the necessary authority and funding so that 
solutions can be implemented.
    Reclamation will continue to support the Collaborative Program and 
work with the many other stakeholders to create workable solutions that 
can be implemented with broad support and remain sustainable so that 
the existing communities and their economies can continue to enjoy the 
benefits of the Rio Grande, while protecting the Silvery Minnow and the 
Southwest Willow Flycatcher.

                          WORKFORCE DIVERSITY

    Question 4. As the head of the Bureau of Reclamation, what steps do 
you plan to take to promote diversity in the work force?
    Answer. I am advised that the Bureau of Reclamation is presently 
engaged in many diversity efforts. If confirmed as the Commissioner of 
Reclamation, I will commit myself to working toward a diverse and 
representative work force.

                               TITLE XVI

    Question 5. What are your views of the Title XVI water reclamation 
and reuse program? Do you believe that additional projects should be 
undertaken? What do you think is the role of wastewater recycling and 
reuse in western water policy?
    Answer. Water reclamation and reuse, or recycling, is an important 
tool for water conservation and an effective and efficient means to 
increase water supply availability and reliability for local water 
users, particularly in the Western United States. This new water can 
help reduce the use of imported water, and offer concurrent benefits 
such as environmental and drought protection. The potential exists to 
use this technique Westwide to increase the available water supply.
    I understand there are currently about 25 projects authorized for 
construction through the Title XVI Water Reclamation and Reuse program, 
which enjoys strong state and local support. Reclamation has been 
providing funding for 17 of these projects, and has also provided 
funding for a number of additional feasibility studies for other 
projects not yet authorized for construction. Given the existing demand 
for funding for the currently authorized projects, and Reclamation's 
limited budget for this program, the authorization of additional 
projects would be a challenge to its resources. However, water 
reclamation and reuse will most likely play an expanding role in 
western water resources management, and Reclamation should try to 
support these types of projects to the best of its ability.

                            SCIENCE PROGRAMS

    Question 6. What is the status of the research and science programs 
at the Bureau of Reclamation? What will be the focus of these programs 
during your tenure?
    Answer. Reclamation is confronting water management challenges of 
the 21st Century by employing new knowledge and new technologies gained 
through research. Reclamation's project activities and responsibilities 
rely on the application of science and research to produce strong, 
supportable water management decisions and flexible solutions for an 
aging infrastructure.
    The Science and Technology (S&T) Program is instrumental in 
developing tools, technology, and skills that will assist Reclamation 
in future activities. The Snake River Decision Support Systems and 
Riverware are two examples of watershed and river system management 
tools developed through the S&T Program. These elements are now used as 
the tools and cutting edge technologies in completing complex impact 
analysis and decision making in Reclamation.
    Additional areas of attention include research in hydroelectric 
infrastructure protection and enhancement, advanced water treatment, 
desalination, and water purification.

                              PLATTE RIVER

    Question 7. What is the status of work on the Platte River Program? 
Please provide an update and time line for future action.
    Answer. It is my understanding that on July 1, 1997 the states of 
Wyoming, Nebraska, and Colorado, and the Department of the Interior 
entered into a ``Cooperative Agreement for Platte River Research and 
Other efforts Relating to Endangered Species Habitats Along the Central 
Platte River, Nebraska.'' In the past three years, the partners in the 
Cooperative Agreement have put together a general Water Action Plan to 
provide the remaining water and a proposed process for acquiring and 
managing the land. I have been informed that in December of 2000 the 
Governors of the three States and the Secretary agreed to a three-year 
extension of the Cooperative Agreement, to June 30, 2003, as well as 
the following milestones:

  <bullet> Governance Committee determines proposed program--September 
        2001
  <bullet> Publication of the Draft Environmental Impact Statement--
        January 2002
  <bullet> Publication of the Final Environmental Impact Statement and 
        Record of Decision--December 2002
  <bullet> Phase 1 program implementation to achieve the first 
        increment of river and habitat improvement--2003-16

                               PRIORITIES

    Question 8. What will be your three highest priorities as 
Commissioner?
    Answer. (1) As Commissioner, I believe it is fundamental that 
Reclamation operate and maintain its projects in a safe and reliable 
manner that protects the health and safety of the public and its 
employees. I would place great emphasis on operating and maintaining 
projects to ensure continued delivery of water and power benefits to 
the public consistent with environmental and other requirements, and to 
honor state water rights, interstate compacts, and contracts with 
Reclamation's users. As the single largest provider of water in the 
West and second largest hydropower utility in the Nation, many 
communities depend on Reclamation and I take this responsibility 
seriously.
    (2) As the West continues to grow rapidly, the competition for 
scarce water resources is great and will continue to grow. Reclamation 
has an important role to play. In the near term, Reclamation should be 
responsive to drought issues that arise due to weather conditions and 
work in partnership with states, tribes, water users, and others to 
seek creative solutions to meeting immediate water needs and exercise 
Reclamation authorities for emergency drought response if necessary. In 
the longer term, I am committed to Reclamation playing an appropriate, 
but important, role in meeting future water supply needs in partnership 
with these interests. These solutions include improving operational 
efficiency, assisting with water conservation measures and water 
recycling, assist in contingency planning for drought, and in selected 
cases increasing water supply.
    (3) The Bureau of Reclamation has experienced a great loss in 
technical capability in the last decade. In order for Reclamation to 
address the complex water management issues in the West, it needs to 
nurture its people and work to form the best team to address Western 
water issues. I will seek to bring new energy into Reclamation by 
recruiting young people who have the scientific, engineering, and 
organizational expertise to help Reclamation enhance its effectiveness 
in meeting the contemporary challenges in the West.
       Responses of John Keys to Questions From Senator Domenici
    Question. Several New Mexico communities have rights to San Juan 
Chama water. However, many of these communities have not yet developed 
these rights.
    Working with the Bureau of Reclamation, would you help ensure that 
communities are allowed to develop these very important water rights?
    Answer. Yes.
    Question. The Bureau of Reclamation's mission is to provide water 
for irrigation and some municipal and industrial uses. With the current 
water situation in New Mexico the activities of the Bureau of 
Reclamation remain critically important.
    Would you continue to promote traditional irrigation and municipal 
and industrial uses, while encouraging the Bureau of Reclamation to 
work in cooperation with other affected agencies and users?
    Answer. Yes.
    Question. This past July, Interior Solicitor Leshy issued an 
opinion which allowed the Bureau of Reclamation to take over irrigation 
works from two irrigation districts in New Mexico. The Bureau of 
Reclamation later agreed not to take over the works of one of the 
districts, but such assurances were not given for the other district.
    Would you work to find other solutions to these issues, in 
compliance with state water law, that do not involve a government 
takeover of irrigation works?
    Answer. As Commissioner I would work to find solutions that will 
maintain the integrity of the Reclamation projects so that the water 
users can continue to receive the benefits they provide. Central to 
these successful solutions will be the need to assure compliance with 
appropriate state and federal law. It is the desire of Reclamation to 
continue to have the districts operate the projects. I believe that the 
best solutions are likely found in the collaborative stakeholder 
processes which can lead to sustainable project operation and 
compliance with the law.
    Question. You are aware that few issues are as contentious or 
complex as those surrounding water in the West. New Mexico, in 
particular, is a very arid state suffering from increased demands on 
limited water supplies. The past year brought even greater challenges 
to New Mexico's water situation due to endangered species issues on our 
two main rivers. Western states in general continue to strive toward 
the goal of assuring water availability for human consumption while 
remaining in compliance with state water law, compact requirements and 
the Endangered Species Act.
    Will you work to help achieve long term solutions to problems 
arising from limited water supplies, while protecting states rights, 
interstate and international compact obligations and the preservation 
of endangered species?
    Answer. Yes.
    Question. In helping to create and advance solutions to western 
water issues, will you strive to be aware of the sensitivity of all 
users and work to ensure fairness to all parties who may be affected by 
agency decisions?
    Answer. Yes.
    Question. Communities must be allowed to continue development for 
human use and provisions must be made to allow for future development 
and growth. Are you willing to support water policies and programs that 
will allow for this type of growth and development?
    Answer. Yes.
       Responses of John Keys to Questions From Senator Campbell
    Question. Can the both of you commit to work together with the 
other water users, power interests, and the water rights to finish the 
Black Canyon water right quantification?
    Answer. Yes, Bureau of Reclamation people and I will work closely 
with the National Park Service Director and her people to finalize the 
Gunnison River quantification of water for the Black Canyon of the 
Gunnison National Park.
    Question. Can the both of you commit to resolving this within the 
next two years?
    Answer. There are many actions, factors and parties that may affect 
the schedule for resolving this issue. Bureau of Reclamation people and 
I will cooperate fully with the National Park Service Director and her 
people to expedite the issue's resolution.
    Question. My next question is in regards to information sharing. 
Could you provide me and the State of Colorado your justification for 
quantifying this right you have filed and can you commit to me to 
provide the proper and appropriate information to me and all of the 
interested parties?
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
    Question. Secretary Norton has made local participation mandatory 
on decision making at the Department of Interior. So, can you commit to 
seeing that all affected water users are allowed to participate in all 
technical meetings to resolve this issue instead of mandating from 
Washington?
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
    Question. Can you commit to ensuring that any water right the 
National Park Service pursues is consistent with the McCarran 
Amendment, state water laws, interstate compacts and state court cases 
that make up our water laws?
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
    Question. Given the nationwide power crunch, are you willing to 
subordinate their water right to the Aspinall Unit so as not to disrupt 
power production?
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
    Question. In the documents that the Park Service filed, how did it 
quantify the impact on power production?
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
    Question. Has the Park Service complied with the Bush 
Administration's May 18 Executive Order that requires it to consider 
power impacts before taking action? Please describe how the Service 
intends to comply with this order.
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
    Question. The Park Service has stated that it intends to negotiate 
Black Canyon water rights settlements with affected parties. Given that 
over 300 parties have intervened in the Colorado court case, what 
process does the Service plan to use to pursue those negotiations?
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
    Question. Are you aware that the Western Area Power Administration 
(WAPA) has serious concerns about the impact of those flows on 
hydropower generation at the Colorado River Storage Project and that 
WAPA says it did not have sufficient time to analyze the 
recommendations before they were filed?
    Answer. This question is most appropriately answered by Director of 
the National Park Service--Designate Mainella. I refer you to her 
answer to this question.
         Responses of John Keys to Questions From Senator Burns
    Question. Irrigators have repaid the Federal investment on some of 
our state's older Reclamation projects and local irrigation districts 
have successfully managed the Federal properties, some for over 50 
years. In these cases, the Bureau has encouraged the transfer of title 
to the districts, but there are conditions that do not make the 
transfer feasible for them. (For instance, the Bureau's conditions for 
Lower Yellowstone Reclamation Projects call for removal of the 
community pumping units from the Pick-Sloan power system). What will 
your position be on title transfers?
    Answer. Transferring title to projects and facilities makes sense 
and should be continued as it is an opportunity to move facilities from 
Federal ownership to more appropriate local control into the hands of 
those who know them, benefit from them, and in most cases have operated 
them for years. At times, the system in place for title transfer is 
cumbersome and takes a long time to accomplish. I will certainly work 
with any constituent that is interested in title transfer and do all 
that I c.qn to minimize the time required to accomplish those 
transfers.
    Question. Economic development is a requirement in our state for 
our communities to survive. The Bureau of Reclamation has provided a 
great service in developing water resources in the past like irrigation 
and hydropower. But there is a lot more that can be done such as 
additional irrigation projects, assistance in conservation measures to 
extend the resource, rural domestic water systems, and modifications to 
existing facilities to meet today's safety and environmental standards. 
There is a backlog of projects that have been authorized and need 
funding. Will you work with me to find a way to make sure the BOR is 
able to reach these goals?
    Answer. Yes, I would be glad to look into this issue and work with 
you.
    Question. The Bureau's Pick-Sloan Missouri River Program is a great 
system with the purpose of fostering economic development by developing 
the river's water resource. I understand that rural and municipal water 
systems, and new irrigation concepts employing the use of the system's 
hydropower resource is possible under this program. I also understand 
that a great deal can be done with minimal impact on the basin's power 
rates. Will you be receptive to promoting the intended use of the Pick-
Sloan program?
    Answer. I agree that the Pick-Sloan Missouri Basin program has been 
a tremendous economic stimulus to the states in the Missouri River 
Basin. I am also aware that only a small part of the development 
envisioned under that program has been realized. I am receptive to 
working with Congress, the Missouri River Basin states, and others to 
explore avenues for making the intended benefits of the Pick-Sloan 
program available to areas in need of assistance.
                                 ______
                                 
                                                     June 28, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my responses to the 
written questions following my confirmation hearing before the Energy 
and Natural Resources Committee on Wednesday, June 27, 2001.
    If I can be of further assistance, please let me know.
            Sincerely,
                                       Frances P. Mainella,
                        Director, National Park Service, Designate.
[Enclosures.]
    Responses of Frances Mainella to Questions From Senator Bingaman
    Question. The National Park Service Organic Act of 1916 provides 
that the purpose of national parks is to ``conserve the scenery and the 
natural and historic objects and the wildlife therein and to provide 
for the enjoyment of the same in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations.'' One of 
the major management challenges for the Park Service has been how to 
properly balance the two legislative mandates of conservation and 
recreation.
    The current Park Service management policies interpret the Organic 
Act to mean that ``when there is a conflict between conserving park 
resources and values and providing for enjoyment of them, conservation 
is to be predominant.''
    Do you agree with this policy, that the conservation of park 
resources and values is the primary mission of the National Park 
Service?
    Answer. It seems reasonable that the Park Service would not allow 
activities that would deprive future generations of the ability to 
enjoy park resources or values. I am advised that the courts have 
consistently interpreted the Organic Act this way. Therefore, I would 
agree that the resource is always the primary focus.
    Question. The Park Service has published a rule eliminating 
personal watercraft (commonly referred to as ``Jet Skis'') in many 
parks. Do you support this proposal?
    In your opinion, under what circumstances, if any, is motorized 
recreation appropriate in national park areas? Is this an issue of 
finding and implementing appropriate new technologies or are there 
simply some uses that are incompatible with national parks?
    Answer. I understand that the rule identifies 21 areas where some 
Personal Water Craft (PWC) use may be permitted to continue through a 
special rule. I am also advised that evaluations are underway at 
several of these areas to determine whether to propose a special 
regulation to allow PWC use to continue. These determinations are 
appropriately made on a case-by-case basis. I will look forward to 
reviewing any proposal that results from this process. Motorized 
recreation should be evaluated on a case-by-case consistent with park 
purposes, the protection of resources, and the quality of visitors 
experience.
    Question. Under the recreation fee demonstration Program, the 
National Park Service is given very broad authority to charge whatever 
visitor fees it deems appropriate. The revenues from these fees has 
helped to address critical funding needs throughout the National Park 
System. However, as a result of this, fees have significantly increased 
at most parks, in many cases doubling. Are you concerned that as a 
result of the push to generate increase revenues, larger segments of 
our population will be excluded from using our national parks?
    Answer. Charging fees is appropriate and the revenues are needed. 
However, I certainly do not want to see fees exclude segments of 
population from parks. At this point, I am advised that the NPS fee 
programs do not appear to be having such an effect. I will watch the 
impact of these fees closely to assure that this does not happen. I 
understand the NPS has retained McKinsey and Company, an outside 
consultant, to review the fee program, with the objective to optimize 
revenues, keep fees from being confusing to public, and to assure that 
monitoring occurs to track critical information, including whether the 
program excludes segments of the population. I look forward to learning 
more about this study and want to work closely with Congress on the fee 
issue.
    Question. New authority was provided by Congress last year to the 
land management agencies to use youth conservation corps to complete 
post fire rehabilitation and erosion control work as well as urban/
wildland interface hazardous fuel reduction work. From the information 
we have received from the department to date, it appears that the Park 
Service and other land management agencies have focused almost solely 
on hiring new federal employees rather than developing new, or 
expanding existing, cooperative agreements with youth corps to complete 
some of the work.
    What do you believe should be the appropriate balance between 
hiring new federal employees and using partnerships with State, local, 
tribal, or non-profit youth corps to conduct this type of work?
    Answer. I understand that there is a greatly expanded wildland fire 
program, particularly to deal with reduction of hazardous fuels near 
communities at risk. The program is built on a partnership between the 
Federal land management agencies, the states, and communities at risk. 
NPS has been successful with partnerships and I support making use of 
contracts and cooperative partnerships with youth groups and others to 
the greatest extent possible consistent with safety and getting the job 
done.
    Question. Over the past few years, the National Park Service has 
been using a portion of its Recreation Fee Demonstration Program funds 
to engage youth in conducting service projects in the parks through 
partnerships with non-profit and conservation corps pursuant to the 
authority of the Public Land Corps Act of 1993. In FY2001 alone, the 
Park Service used nearly $12 million in fee revenue and partner 
matching funds to carry out 360 maintenance and restoration projects in 
148 parks with 46 youth corps.
    Given that reducing the backlog of maintenance in the parks is a 
top priority of the current administration, and since funding the 
Public Land Corps with a portion of Recreation Demonstration Program 
funds is at the discretion of the Director, will you commit to continue 
funding for the Public Land Corps?
    Answer. I understand the Public Land Corps is an exciting new 
addition to youth programs of the NPS. I support making use of this 
program and similar ones such as the Youth Conservation Corps, the 
Student Conservation Association, and others at every opportunity. 
These programs engage the interest and energy and develop the skills of 
our nation's youth in the conservation of our nation's treasures, 
develop their work skills and ethic, and contribute enormously to 
accomplishing critical work in the national parks.
    Responses of Frances Mainella to Questions From Senator Domenici
    Question. This past year was one of the worst fire seasons in over 
50 years. In NM alone, there were over 1,000 fires consuming over 
400,000 acres of land. With the arid conditions in much of the west, 
fires will continue to pose a threat. Congress was successful this past 
year in securing funding for Interior to help with efforts that will, 
among other things, thin forest growth, increase fire fighting 
capabilities and identify communities who are particularly at risk from 
fires. The legislation specifically states that local businesses be 
given priority for contracts and other ventures that will be needed to 
carry out the intended efforts.
    Are you willing to do what you can to protect western communities 
from fire threats?
    Answer. Yes. I have been informed that the National Park Service 
(NPS) is actively engaged in implementing the National Fire Plan. Fuels 
treatment projects that are associated with the wildland urban 
interface are a high priority and many projects are currently being 
implemented. In addition, planning has begun for projects that will be 
implemented in future years.
    Communities are participating in Firewise workshops throughout the 
West. I understand the National Park Service is sponsoring many of the 
workshops, or is participating with other agencies in conducting these 
workshops.
    I also have been told that the National Park Service is 
aggressively hiring firefighting personnel for this upcoming wildfire 
season and that Secretary Norton and the Oak Ridge Boys prepared a 
series of public service announcements to recruit wildland 
firefighters. The National Park Service hired a consulting firm to aid 
in their recruitment efforts for firefighters.
    If confirmed, I intend to affirm the direction that the Acting 
Director of the National Park Service issued on June 18, 2001 asking 
regional directors and park superintendents to ensure that NPS 
employees and equipment are ready for another potentially difficult 
fire season.
    Question. Are you willing to help ensure that National Fire Plan 
funds are used rationally and that local businesses within these 
communities are given these priorities?
    Answer. I understand that many geographic areas are conducting 
collaborative meetings to prioritize wildland/urban interface projects 
and where we have park units we are participating. Many of these 
projects are using local labor sources to implement the projects. The 
National Park Service is also exploring and utilizing contracting 
capabilities for all phases of the project from planning to actual 
implementation. I agree with this approach to utilize the capabilities 
of the local businesses and if confirmed, I will continue these 
endeavors.
    I support the assistance the National Park Service is able to 
provide through the Rural Fire Assistance program. I understand that 
this program can provide money for training and equipment so that rural 
fire departments can assist in the wildland firefighting efforts, where 
appropriate.
    Question. One of the worst fires last year was the Cerro Grande 
fire near Los Alamos, New Mexico. This fire began as a controlled burn 
by the National Park Service. Unfortunately, the fire raged out of 
control and burned over 400 homes and businesses in the area. Many 
reports and studies conducted as a result of this fire, concluded that 
many of the park service policies were flawed.
    Will you work to ensure that the Park Service has adequate, well-
defined policies so that disasters such as the Cerro Grande fire can be 
avoided in the future?
    Answer. I have been informed that the Acting Director for the 
National Park Service (NPS), on May 30, 2001, gave authorization to 
parks to implement new prescribed fire guidelines.
    Additionally, a number of workshops for NPS employees have been 
held to communicate the changes in prescribed burn policies, plans, 
required analyses and practices.
    In recent years, fire has been a concern in Florida as well. If 
confirmed as Director, it will remain a personal priority of mine.
    Question. National Park Service spending needs to be brought under 
control. We need better accounting (the Denver Service Center has been 
notorious for cost overruns, outrageous costs in construction, etc.).
    Are you willing to do what is necessary to help control spending?
    Answer. Yes. With respect to the construction program, I am 
committed to the continued implementation of changes such as those that 
were recommended in 1998 by the National Academy of Public 
Administration (NAPA), following its independent review of the agency's 
construction program.
    Question. Local impact of fee structure at parks is also 
problematic. Currently Carlsbad, NM has reported that the high costs at 
Carlsbad Caverns is driving off tourism.
    Will you study these local impacts and work to ensure that fee 
structures are rational and designed to benefit the park and the 
overall community?
    Answer. I am unfamiliar with the situation at Carlsbad Cavern, but 
will certainly look into it. I support a rational fee program that is 
not confusing to the public, optimizes revenue without excluding 
segments of the population, and does not have an undue impact on 
adjacent communities.
     Responses of Frances Mainella to Questions From Senator Akaka
    Question. Over the last ten years I have been an advocate for 
increased recognition of diversity within the national park system. The 
previous Administration made a major commitment to reach out to diverse 
communities around the country so that our parks, and those who serve 
as stewards of these places, are truly reflective of our nation.
    I have initiated studies for Park Service units that tell the story 
of Japanese-American internment camps, historic and cultural trails and 
parks in Hawaii, as well as the story of West Coast immigration, and a 
bill on the Peopling of America. I believe that the interpretation of 
how America has become a diverse nation is important to us all.
    Do you see this as an important issue with regard to long-term 
preservation for our national parks? If so, would you make this a 
priority under your leadership?
    Answer. Diversity in our parks is an important issue and I believe 
it is crucial given the high regard in which the American people hold 
our national parks. The broad sweep of America's panoramic history is a 
remarkable story. I firmly believe that national parks should tell the 
complete story about America. If confirmed, I will make this a 
priority.
    Question. How do you think the Park Service can foster a greater 
appreciation of our national parks to a wider constituency and broaden 
the identification and interpretation of new parks that tell the story 
of all our peoples?
    Answer. Americans care deeply about their national parks. We need 
to continue to reach out to ensure that the National Park System 
represents the diversity of our American culture.
    Question. During both Republican and Democratic Administrations, 
Congress authorized new parks to conserve our natural and cultural 
heritage. In the 106th Congress, four new units were created and 
several park expansions authorized, including Great Sand Dunes National 
Park in Colorado and Hawaii Volcanoes National Park. What is your view 
of the need to continue adding nationally significant resources to our 
national park system? Do you intend to place a limit on recommending 
new units?
    Answer. The National Park System has been growing and evolving from 
the time the first national park was established at Yellowstone in 
1872, and it will continue to do so for as long as long as our Nation 
exists. However, at this particular moment, we have a serious backlog 
of maintenance needs at existing park units, and the President has 
rightly focused attention on addressing those needs rather than on 
expanding the system. The Administration's policy of asking Congress to 
defer action on the designation of new units is in effect for this 
session of Congress.
    Question. An important issue facing the national parks is what 
types of access and amounts of access should be provided for motorized 
vehicles, including SUVs, and snowmobiles, of course, but also 
regarding personal watercraft. And as you know, the air tour Management 
Act now requires the Park Service and the FAA to undertake planning for 
flights over national parks.
    What are your views regarding motorized access to national parks?
    What about snowmobiles? Do you support the existing rule to 
phaseout snowmobiles in Yellowstone and Grand Teton National Parks?
    Answer. I support the use and enjoyment of national parks 
consistent with maintaining the conservation values for which the units 
were created. Motorized recreational access must be evaluated on a 
case-by-case basis.
    I look forward to learning about snowmobile use and its impacts in 
national parks and expect to focus quickly on the use of snowmobiles at 
Yellowstone and Grand Teton National Parks.
    Question. The National Parks Air Tour Management Act was passed 
last April to help protect national parks from the noise and disruption 
that can be caused by commercial air tours. The National Park Service 
will cooperate with the Federal Aviation Administration to develop air 
tour management plans in parks where air tours occur.
    Right now, the program charged with developing air tour management 
plans is scheduled to receive the same level of funding in FY 2002 as 
it did in FY 2001, yet the office will have much greater 
responsibilities. I am concerned whether the Park Service has the 
resources needed to manage park visitorship whether on the ground or in 
the air above the parks.
    What are your thoughts on providing additional resources to this 
office and on the priority for managing air tours over parks that need 
it?
    Answer. I recognize the need for air tour management plans for a 
number of national parks. If confirmed, I will look into the program 
and whether the level of funding is sufficient to move forward with 
these plans.
    Question. I believe that eliminating the backlog of maintenance is 
important, but I also believe we must not jeopardize funding for the 
everyday management and interpretive needs of national parks. While 
visitorship is growing, funding to provide a quality visitor experience 
is shrinking.
    It has become clear that we cannot rely solely on appropriated 
monies for the day-to-day needs of the Park Service. We need to discuss 
a variety of different ways to assist the parks to raise monies.
    The National Parks Stewardship bill includes a provision to explore 
a mechanism called NAFIs or Non-Appropriated Fund Instrumentalities. In 
the past the idea of parks bonds has been considered. Also, the 
Recreational Fee Demonstration Program has been authorized as a pilot.
    I believe we need to assess the successes and weaknesses of this 
program and to build on them where necessary, and I am interested in 
your views on this pilot program.
    Question. What are your views and priorities for identifying 
mechanisms, including recreational and other fees, for augmenting funds 
for national parks? In addition to increased appropriations, would you 
look favorably on such options as increased user fees or other 
financial innovations? How do you propose to ensure that the Park 
Service has an adequate financial base to meet the basic infrastructure 
demands and provide quality visitor facilities and interpretation?
    Answer. I believe the Recreation Fee Demonstration Program has been 
very beneficial for the National Park System, allowing parks to 
accomplish a range of activities to improve parks and enhance the 
experience for visitors that otherwise would not have occurred. I look 
forward to working with the committee on the future of the fee program 
to consider other means of generating funding that will help further 
the NPS mission. Another relatively new development that I believe will 
help parks with the funding they need is the development of business 
plans, which NPS is piloting at some of the parks.
    Question. Pu'uhonua o Honaunau as you know, the parks in Hawaii and 
the Pacific are very important to me. I have introduced a bill to 
authorize an expansion of Pu'uhonua o Honaunau National Historical 
Park, a premier cultural historical park on the Kona coast of Hawaii. 
The park has the opportunity to acquire a parcel of land containing 
significant archaeological and historical resources from a willing 
seller and with widespread support of the community.
    Would you be willing to share your views on expansions of existing 
parks?
    Answer. I believe the expansion should proceed, where appropriate, 
to ensure the protection of important natural and cultural resources. 
The Administration's policy with respect to park expansions is that it 
will consider such proposals on a case-by-case basis, with a critical 
eye toward the budgetary impacts of any addition. The Administration's 
priority is to address the deferred maintenance backlog at existing 
units, and for that reason it is taking a cautionary approach to 
supporting proposals that would expand the responsibilities and 
financial obligations of the National Park System at this time.
    Question. As you may know, the highest funded priority on the 
National Park Service's Land and Water Conservation Fund acquisition 
for FY 2002 is for Kahuku Ranch, adjacent to Hawaii Volcanoes National 
Park. I am pleased with this prioritization, and I hope I can count on 
your support to see this purchase completed.
    Answer. I understand that the President's proposed budget for 
fiscal year 2002 included $4 million for acquisition of 18,600 acres of 
the Kahuku Ranch. If these funds are ultimately included in the final 
appropriations bill for the Department of the Interior, acquisition of 
this important property could move forward, affording protection to its 
diverse ecosystems.
    Question. I am concerned about cultural interpretation--the ability 
of the NPS to use histories, ethnographies, and the knowledge of elders 
who are living in or near parks to assist in the interpretive materials 
for the Park Service. There is a great deal of knowledge that can be 
helpful in interpreting the historical, archaeological, and 
ethnographic records of parks areas. I believe the Park Service can be 
a bridge to people who can be resources for the park.
    I would like to know your thoughts on the value of local knowledge 
and also on the Park Service's ethnography program in support of 
cultural interpretation.
    Answer. Our national parks as well as public lands managed by other 
Federal agencies and by State and local governments must not be thought 
of as isolated preserves cut off from the communities surrounding them. 
I believe that local knowledge is invaluable to the cultural 
interpretation of these places. If confirmed, I look forward to 
incorporating historical knowledge where such local knowledge is not 
part of the existing interpretive programs.
     Responses of Frances Mainella to Questions From Senator Graham
    Question. What are some ways to address the current operations and 
maintenance backlog in our national parks?
    Answer. The President has made a commitment to spend $4.9 billion 
over the next five years to eliminate the deferred maintenance backlog 
in our national parks--$2.2 billion for facilities at parks, and $2.7 
billion related to transportation needs. With Congress' support for 
this initiative, we will make significant progress toward addressing 
maintenance needs in the parks. As we make these investments, it will 
also be necessary to invest in routine maintenance to avoid the need 
for major rehabilitation costs in the future.
    Question. How would you apply your positive experience with public-
private partnerships to the National Park Service?
    Answer. Successful partnerships have been critical to the positive 
experiences I've had in Florida. These same concepts should benefit the 
National Parks. A partnership must be a win-win for all involved. The 
public-private partnerships that have worked well include volunteers, 
friends groups, concessions, Partnership-in-Parks and many others. 
Volunteers help with projects and reduce our operation cost or allow us 
to do a project that we could never afford. The friends groups being 
non-profit organizations seek grants that benefit the park. I've worked 
effectively with concessions for all my 12 years at Florida State 
Parks. Recently we awarded the building and operating of 143 new cabins 
to the private sector. The most unique is the partnership-in-parks 
where through our friends groups they raise $60,000 or more then the 
state matches with $40,000 (60-40 match). The project must be in the 
management plan for the park. I would hope some of these concepts could 
apply to the National Parks.
    Question. Some park resources require more specialized care than 
others. One example is the lighthouse at Biscayne National Park in 
south Florida. The Vanishing Treasures Program is one way to insure 
that these unique resources remain for the public. What are your 
suggestions for protecting these resources?
    Answer. I have been informed that the Boca Chita Lighthouse at 
Biscayne National Park has been closed to the public for several months 
while undergoing restoration and repair. The upgrades to handrails and 
other components are nearly complete and the National Park Service is 
now working with engineers to determine if it is structurally stable 
enough to be reopened to the public. This is an example of the backlog 
maintenance needs in the National Park Service that the President is 
committed to resolving. If confirmed, I would support the President's 
effort to make the maintenance backlog a priority. This would help the 
NPS to preserve historic structures and improve visitor facilities.
    While the Vanishing Treasures initiative is focused on prehistoric 
and historic ruins in the American Southwest, there are other programs 
that can assist with the preservation of historic resources throughout 
our Nation. One example is the Save America's Treasures program, which 
is proposed in the FY 2002 budget. Upon confirmation, I will try to 
maximize the historic preservation efforts in the National Park 
Service. In addition, we should continue to work to identify non-
Federal resources for these purposes.
    Question. The National Park Service is most commonly associated 
with its famous parks. However, the park service has an important 
responsibility to protect and preserve some of our nation's most 
historic places and artifacts. However, for a variety of reasons, this 
preservation is not being carried out as it should be. As an historic 
preservationist, do you have any ideas for improving the way the park 
service carries out this duty?
    Answer. The NPS has developed the Natural Resource Challenge. This 
comprehensive strategy may provide us with better scientific data that 
will enhance cultural preservation efforts. Also, NPS has a Vanishing 
Treasures Program. I would hope, as we did in Florida, a cultural 
initiative can be address in NPS. In Florida, we established a training 
program and a legislative budget request for our historic sites to 
better fund and care for these important areas. I will be interested, 
if confirmed, in exploring similar efforts in the national parks and 
better understanding what is already underway. As you know, I just 
received the Senator Bob Williams award for making a difference in 
historic preservation in the state of Florida.
    Question. As you know, this years marks the first year of an 
historic project to restore the Everglades. Everglades National Park is 
the principle beneficiary of this project. If you are confirmed as 
Director of the National Park Service, what steps will you take to 
ensure that this restoration effort is effectively coordinated among 
the Department of the Interior, Army Corps, and the State of Florida?
    Answer. The Everglades restoration project is a model of an 
effective cooperative partnership. I understand that representatives of 
all the agencies involved in the effort meet frequently. In addition, I 
understand that Park Service officials from the Everglades, the 
Southeast Regional Office in Atlanta, and the Washington office have 
met with Interior Secretary Norton's staff to bring them up to date on 
the progress thus far. One of the continuing challenges is to make sure 
that agency roles are clearly defined and that water is allocated 
equitably to meet the park's needs as well as those of the South 
Florida Water Management District. If confirmed, I will ensure that the 
NPS will continue to actively participate in the coordination process.
    Responses of Frances Mainella to Questions From Senator Campbell
    Question. Can the both of you commit to work together with the 
other water users, power interests, and the water rights to finish the 
Black Canyon water right quantification?
    Answer. Yes
    Question. Can the both of you commit to resolving this within the 
next two years?
    Answer. I am told that resolving the water right is a complex issue 
that is intertwined with other equally complex issues (endangered fish 
species and Aspinall Unit Operations). I understand that NPS is making 
a concerted effort to work with the other water interests in the basin 
to develop an agreeable resolution of the water right quantification as 
expeditiously as possible.
    Question. My next question is in regards to information sharing. 
Could you provide me and the State of Colorado your justification for 
quantifying this right you have filed and can you commit to me to 
provide the proper and appropriate information to me and all of the 
interested parties?
    Answer. As this water rights claim is now pending, decisions 
involving the sharing of information fall within the purview of the 
Department of Justice. However, I am told that the NPS and the 
Department of Justice intend to work with the basin water interests to 
negotiate a resolution of the quantification and understand that 
sharing information will be necessary during the course of 
negotiations.
    Question. Secretary Norton has made local participation mandatory 
on decision making at the Department of the Interior. So, can you 
commit to seeing that all affected water users are allowed to 
participate in all technical meetings and negotiations? That way 
everyone is at the table to resolve this issue instead of mandating 
from Washington.
    Answer. It is my philosophy that the NPS must commit to work and 
consult regularly with local interests. While I am not yet familiar 
with the details of this issue, I will urge the Department of Justice 
to involve representatives of affected water users in technical and 
other meetings.
    Question. Can you commit to ensuring that any water right the 
National Park Service pursues is consistent with the McCarran 
Amendment, state water laws, interstate compacts and state court cases 
that make up our water laws?
    Answer. Yes. I can commit that any water right the NPS pursues is 
consistent with all applicable state and federal laws.
    Question. Given the nationwide power crunch, are you willing to 
subordinate their water right to the Aspinall Unit so as not to disrupt 
power production?
    Answer. As stated earlier, I am not familiar with the details 
surrounding this matter. If confirmed, I am committed to a balanced 
approach to resolving what I am advised is a complex issue.
    Question. In the documents that the Park Service filed, how did it 
quantify the impact to power production?
    Answer. At this point, I am unable to comment adequately as I have 
not yet had the opportunity to see or review the documents that the 
Park Service filed in this matter.
    Question. Has the Park Service complied with the Bush 
Administration's May 18 Executive Order that requires it to consider 
power impacts before taking action? Please describe how the Service 
intends to comply with this order.
    Answer. I am told that the NPS has not taken any action that would 
affect power generation since the Bush Administration's May 18 
Executive Order. As I indicated previously, the NPS will comply with 
all applicable legal requirements.
    Question. The Park Service stated that it intends to negotiate 
Black Canyon water rights settlements with affected parties. Given that 
over 300 parties have intervened in the Colorado court case, what 
process does the Service plan to use to pursue those negotiations?
    Answer. I understand that there have been meetings with water user 
organizations to deal with the issue of the large number of parties. It 
is anticipated that this will facilitate involvement of representatives 
of affected water users in the negotiations.
    Question. Are you aware that the Western Area Power Administration 
(WAPA) has serious concerns about the impact of those flows on 
hydropower generation at the Colorado River Storage Project and that 
WAPA says it did not have sufficient time to analyze the 
recommendations before they were filed?
    Answer. I am told that the NPS is aware of WAPA's concerns.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                          Governor of the State of Florida,
                                                 February 19, 2001.
Hon. Gale Norton,
Secretary, U.S. Department of the Interior, Washington, DC.
    Dear Secretary Norton: It is with pleasure that I submit this 
letter of recommendation for Fran P. Mainella, who is interested in 
serving the administration as National Park Service Director.
    Fran has served as the Director of Florida State Parks for the past 
twelve years. As Director, Fran manages the administration of 153 state 
parks, preserves, historic sites, recreation areas, wildlife parks and 
trails consisting of over 500,000 acres. She has proven to be a 
motivational leader, creative thinker, effective manager, and 
accomplished director. As a result of Fran's hard work, perseverance, 
and ability to lead a successful team of over 1,000 dedicated employees 
in eight bureaus, Florida was voted as having ``America's Best State 
Park System,'' receiving the 1999-2001 Gold Medal Award. Last year, the 
National Recreation and Park Association's 2000 Kudo's Award also 
recognized Florida's State Park System for Best Web Site and Best 
Promotional Video.
    In addition to her fine work with the State of Florida, Fran has 
been an active member and leader with national associations including 
her service as president of both the National Association of State Park 
Directors and the National Recreation and Park Association.
    While Fran's departure would prove to be a great loss for our 
State, I was pleased to learn of her interest and willingness to serve 
in your agency, as I am confident that she would serve with pride and 
distinction. For your reference, I am enclosing a copy of Fran's 
resume, letters of recommendation, and articles of interest.
    Thank you and please do not hesitate to call with any questions,
            Sincerely,
                                                          Jeb Bush.
                                 ______
                                 
                          Florida Congressional Delegation,
                                                     March 7, 2001.
Hon. Gale Norton,
Secretary, Department of Interior, Washington, DC.
    Dear Secretary Norton: It is a great honor for the Florida 
Congressional Delegation to support Fran P. Mainella. Director of 
Florida State Parks, Florida Department of Environmental Protection, 
for the position of National Park Service Director.
    Under Fran's leadership during the last 12 years, the Florida State 
Park system has worked tirelessly with State and county officials to 
achieve the highest standard of excellence. As you are probably aware. 
Florida State Parks rank as the second most desirable destination for 
visitors to our state. Only visitors to Walt Disney resorts and theme 
parks exceed the 16.5 million annual visitors to Florida State Parks. 
Even with the high volume of visitors, our parks boast superior 
resource management and service. Florida State Parks has won on the 
best resource manager of the year 7 out of the last 8 years.
    In a testament to her skills as a creative administrator, Fran has 
brought a number of innovative funding ideas to the table. Florida 
State Parks has become a leader in outsourcing services, working with 
over 1900 partners to move the state park system forward. One example, 
``Partnership-in-Parks'', funds the park system thru private dollars 
matched with state dollars on a 60-40 basis. We know of no similar 
program in any other state park system. Over $4 million worth of 
projects are underway at a cost of only $1.6 million to the state. This 
example of public/private cost sharing demonstrates Fran's ability to 
broker positive relationships between the government and private sector 
interests.
    Fran has been able to connect local communities to the park system 
by enlisting the support of the citizens that enjoy its services. 
Volunteerism is at an all time high in Florida State Parks with over 
837,000 hours donated in this past year, equaling over 400 full-time 
employees for our system. Our Citizen Support Organizations (CSO), 
volunteer friends groups who support our parks, have grown from 5 in 
1989 to now currently 70 CSO's. This means that 1 out of every 3 people 
visiting Florida State Parks is a volunteer. Additionally, our 
visitation for state parks has grown 13.5% over the last year and 32% 
since 1996, as has our revenue that has increased since 1996 by 32%.
    While Florida has greatly benefited from her talents, Fran has also 
shared her extensive experience and leadership skills with prominent 
national organizations. She served as president of the National 
Recreation and Park Association and president of the National 
Association of State Park Directors. Recognized as one of the top 
leaders in this nation for natural resource and park and recreation 
efforts, Fran has testified on numerous occasions before U.S. 
Congressional committees.
    Our state takes great pride in its park system, and Fran's efforts 
have consistently draw in praise and recognition from colleagues across 
the nation, the most notable instance being Florida State Parks' 
selection as the 1999-2001 Gold Medal Award recipient presented by the 
National Recreation and Park Association and National Sporting Goods 
Association. In addition, our outstanding visitor services, resource 
management, innovative funding programs, and citizen involvement led to 
Florida State Parks being named ``America's Best State Park System''.
    We are proud of Fran's leadership and achievements on behalf of all 
Floridians. She has demonstrated, her ability to manage the operations 
of a large organization of over 1000 employees and 155 parks, and she 
has steered our park system into a position of unparalled excellence. 
Her knowledge and ``can do'' attitude would be a great asset to the 
National Park System. We are pleased to join together in recommending 
Fran P. Mainella for the position of National Park Service Director.
            Sincerely,
                    Congressman Clay R. Shaw, Jr., District 22; 
                            Congressman C.W. Bill Young, District 10; 
                            Senator Bob Graham; Senator Bill Nelson; 
                            Congressman Joe Scarborough District 1; 
                            Congressman Allen Boyd, District 2; 
                            Congresswoman Corrine Brown, District 3; 
                            Congressman Ander Crenshaw, District 4; 
                            Congresswoman Karen Thurman, District 5; 
                            Congressman Cliff Stearns, District 6; 
                            Congressman John L. Mica, District 7; 
                            Congressman Ric Keller, District 8; 
                            Congressman Michael Bilirakis, District 9; 
                            Congressman Jim Davis, District 11; 
                            Congressman Adam H. Putnam, District 12; 
                            Congressman Dan Miller, District 13; 
                            Congressman Porter Goss, District 14; 
                            Congressman Dave J. Weldon, District 15; 
                            Congressman Mark Foley, District 16; 
                            Congresswoman Carrie P. Meek, District 17; 
                            Congresswoman Ileana Ros-Lehtinen, District 
                            18; Congressman Robert Wexler, District 19; 
                            Congressman Peter R. Deutsch, District 20; 
                            Congressman Lincoln Diaz-Balart, District 
                            21; and Congressman Alcee L. Hastings, 
                            District 23.
                                 ______
                                 
                                       Sagamore Publishing,
                                       Champaign, IL, June 5, 2001.

    Dear Senator Bingaman: I would like to lend my support for Fran 
Mainella for the appointment of Director for the National Park Service. 
I have known Fran for over 30 years. She has a distinguished career in 
the area of Parks, Recreation and Conservation. She has done an 
outstanding job in the state of Florida in managing the natural 
resources and conservation programs. She is highly recognized by her 
peers for her dedication and energy for our field. Most recently she 
was the Elected President of the National Recreation and Park 
Association by her peers. I am in hopes that the committee will support 
her nomination.
            Sincerely,
                                   Joseph J. Bannon, Ph.D.,
                                                 Publisher and CEO.
                                 ______
                                 
                             City of Albany, Oregon
                                 Albany Parks & Recreation,
                                          Albany, OR, June 6, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Bingaman: This letter is to express my strong support for 
Fran Mainella's nomination for the Director of the National Park 
Service. I know of no other person with the exceptional qualifications, 
commitment and enthusiasm that Fran possesses.
    I have worked with Fran for nine years on the Board of Trustees of 
the National Recreation and Parks Association. Fran also served as 
President of that organization at a time when we were raising funds to 
build a new headquarters and had several other projects in progress. As 
Director of Florida parks system, Fran continues to demonstrate 
outstanding leadership qualities. She has a deep understanding of the 
needs of parks and recreation and knows how to develop them 
effectively. Fran has an exceptional ability to share her vision and 
enthusiasm and to get people to work together.
    I congratulate the National Park Service should Fran become their 
new Director. They would be getting a great leader and a truly fine 
person in Fran.
            Sincerely,
                                                Dave Clark,
                                       Parks & Recreation Director.
                                 ______
                                 
                       City of Anaheim, California,
                             Community Services Department,
                                         Anaheim, CA, June 6, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: I am writing this letter in support of 
President George W. Bush's nomination of Fran Mainella as our next 
National Park Service Director. I am a 32-year park and recreation 
professional and currently employed as the Director of the Community 
Services Department for the City of Anaheim, California. During my 
career I have served as president of the California Park and Recreation 
Society and of the National Recreation and Park Society in addition to 
many other leadership positions. I have traveled internationally and, 
in the course of my work and volunteer efforts, have had the 
opportunity to work with the very best professionals in our field.
    Without reservation, Fran Mainella is one of the highest regarded 
park and recreation professionals in the nation. She has demonstrated 
through her work in the State of Florida her unique ability to build 
coalitions and build a nationally award-winning department. She is well 
respected by environmental advocates and has a way of working with 
people to create unique and lasting solutions to tough problems. She 
has endless energy as demonstrated by her volunteer efforts with a 
number of national organizations. She served as president of the 
National Recreation and Park Association and of the National State 
Recreation Liaison Officers organization. She has been active in her 
state associations and has served in many different capacities as a 
parks and recreation professional.
    Fran Mainella's appointment to the National Park Service 
directorship would benefit our nation and the Park Service because of 
the energy, creativity, credibility and innovation that she would bring 
to the job. I cannot think of an individual more deserving of this 
appointment or more worthy of the challenge. I urge you and the members 
of the Committee on Energy and Natural Resources to unanimously 
recommend Fran Mainella to the full Senate as soon as it is reasonable 
to do so.
            Sincerely,
                                      Christopher K. Jarvi,
                                                          Director.
                                 ______
                                 
                                     City of Tampa,
                                     Recreation Department,
                                           Tampa, FL, June 6, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Bingaman: It is with great pleasure that I would like 
to support the nomination of Fran Mainella for the Director of the 
National Park Service.
    I have known Fran for over fifteen (15) years and worked with her 
when she was the Executive Director of the Florida Recreation and Park 
Association. She has always served the profession with dedication and a 
strong commitment to our cause. She is the ultimate leisure 
professional.
    I know she will bring the same enthusiasm and dedication to the 
National Park Service as she has given to the Florida Department of 
Recreation and Parks. I can think of no one who is more qualified to 
serve in this position than Fran.
    I urge you to support the confirmation of Fran Mainella as Director 
of the National Park Service.
            Sincerely,
                                              Joe Abrahams,
                                                          Director.
                                 ______
                                 
          Northern Suburban Special Recreation Association,
                                      Northbrook, IL, June 6, 2001.
Hon. Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: I was thrilled to see that President George 
W. Bush has nominated Fran Mainella to the post of the Director of the 
National Park Service. I write to urge that your committee recommend 
that her nomination be confirmed.
    I know Fran well. She has an outstanding reputation as an 
administrator, having guided the Florida Department of Natural 
Resources for many years. She is fair and knowledgeable, and would 
truly hold the conservation and park interests of our country as her 
number one priority. Fran is acknowledged as a leader in the field of 
parks and recreation, and served recently as President of the National 
Recreation and Park Association. She is conversant in every aspect of 
park planning and management, including accessibility for persons with 
disabilities. I can think of no better candidate for this post.
    As a former New Mexican, I can assure you that support for Fran 
will be rewarded with good management, innovative service, and 
thoughtful planning. I hope that your Committee agrees.
    If I can answer any questions or provide any further information, 
please contact me at 847/509-9400 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6166686c647d6e79654b657878796a2564796c25">[email&#160;protected]</a> Thank you 
for your consideration.
            Sincerely,
                                          John N. McGovern,
                                                Executive Director.
                                 ______
                                 
                              Lake County Forest Preserves,
                                    Libertyville, IL, June 6, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Bingaman: I am respectfully requesting your approval 
of the nomination of Fran Mainella for Director of the National Park 
Service. Having known and worked with Ms. Mainella for the past seven 
years, I am confident that she is the best possible choice for meeting 
the many challenges faced by National Park Service.
    Our service together as judges for the National Gold Medal Awards 
selection committee has enabled me to see first-hand Fran's thorough 
understanding of what it takes to lead a conservation, park and 
recreation agency that provides excellent service to its visitors and 
proper protection of its natural and historical resources. She has put 
this knowledge to good use as director of the National Gold Medal 
Award-winning Florida State Parks.
    I also have served with Ms. Mainella on the board and committees of 
the American Academy for Park and Recreation Administration. She has 
the ability to work effectively with people of varied interests to 
build the consensus needed to get things done. Additionally, Fran was 
elected as President of the National Recreation and Park Association, 
duties that she fulfilled with great distinction. That term of service 
gave her the opportunity to learn about the varied needs and concerns 
of people nationwide about access to parks and conservation of natural 
resources.
    As Executive Director of a 23,000-acre conservation, park and 
recreation system in the northern suburbs of Chicago, and through my 
previous experiences in California, Michigan and Virginia, I have met 
few people as capable as Ms. Mainella. I know that she will make an 
excellent Director of the National Park Service and will faithfully 
fulfill the wishes of Congress and the dreams of the American people.
    I would like to express my appreciation for your leadership in 
ensuring that our nation's tremendous natural resources are preserved 
and improved for the benefit of all citizens.
            Sincerely,
                                        Steven K. Messerli,
                                                Executive Director.
                                 ______
                                 
                      Lake County Forest Preserves,
                Environmental Education and Public Affairs,
                                    Libertyville, IL, June 6, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Bingaman: I am writing in support of the nomination 
of Fran Mainella for Director of the National Park Service. Ms. 
Mainella is well-respected within the conservation, park and recreation 
profession for her many accomplishments as director of the award-
winning Florida State Park system. She also has served a distinguished 
term as President of the National Recreation and Park Association, 
which gave her an overview of issues facing our parks and preserves 
across the nation.
    In my 20 years of professional experience with regional 
conservation, park and recreation agencies; I have met many outstanding 
park directors and visited the wonderful park systems they lead. Fran 
Mainella and the Florida State Parks system she leads are among the 
best. I am confident that Ms. Mainella's experience in serving the 
diverse populations and protecting the diverse ecological communities 
found in Florida will help her effectively meet the challenges facing 
our National Park System.
    Your leadership in protecting our nation's natural resource for the 
benefit of current and future generations is truly appreciated.
            Sincerely,
                                          Andrew S. Kimmel,
                                                          Director.
                                 ______
                                 
                                      Joliet Park District,
                                          Joliet, IL, June 6, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: It is with great pleasure that I support the 
nomination of Ms. Fran P. Mainella for the Director's position with the 
National Park Service. Having known Fran for many years, she possesses 
quality leadership and management skills required to administer the 
National Park Service.
    Together with her strong work ethic, she is a visionary, innovator 
and can easily create collaborative environments that would be 
beneficial to the future of the National Park Service.
    Fran's leadership positions include being President of the National 
Park and Recreation Association and the Board of Directors of the 
American Academy for Park and Recreation Administration. She is 
regularly called upon to speak at nationally recognized conferences and 
workshops.
    Fran has a national reputation which will assist her in managing 
the National Park Service.
            Sincerely,
                                            Ronald H. Dodd,
                                                Executive Director.
                                 ______
                                 
                       Board of Park Commissioners,
                            Park District of Highland Park,
                                   Highland Park, IL, June 6, 2001.
Senator Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: My name is Scott Chovanec and I am President 
of the Board of Park Commissioners for the Park District of Highland 
Park in Highland Park, Illinois.
    I am writing to urge your support of Fran Mainella for the position 
of Director of the National Park Service. Fran has been a supporter of 
and involved in Parks and Recreation for many years. Fran has extensive 
administrative and public affairs experience that she will use to 
benefit the National Park Service. Please support her nomination. She 
will be a great asset to the department.
            Sincerely,
                                         Scott A. Chovanec,
                                                         President.
                                 ______
                                 
                        City of North Miami Beach, Florida,
                               North Miami Beach, FL, June 7, 2001.
Hon. Bob Graham,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Graham: I am so pleased that President Bush has 
nominated Fran Mainella for National Park Services Director, and I am 
asking for your support in her confirmation.
    For many years, I have known Fran in her capacity as Florida Park 
Services Director. As you know, she has significantly improved the 
State Park System. She is quite personable, and I have every confidence 
that she will work well with Democrats and Republicans alike because 
among her many attributes is a great knack for consensus building.
    It would be a credit to our state to have her in a position of 
national prominence. Your help would be truly appreciated.
            Sincerely.
                                        Jeffrey A. Mishcon,
                                                             Mayor.
                                 ______
                                 
                       National Society for Park Resources,
                                         Ashburn, VA, June 7, 2001.
Hon. Jeff Bingaman,
Chairperson, Energy Commission, U.S. Senate, Washington, DC.
Re: Recommendation for NPS Director Nominee, Fran Mainella

    Dear Senator Bingaman: This letter is being sent unsolicited in 
support and recommendation of Ms. Fran Mainella as President Bush's 
nominee for the Director of the National Park Service.
    I represent over one thousand members of the National Society for 
Park Resources, a professional branch of the National Recreation and 
Park Association. The members of the Society have requested that I 
write a letter of support for Ms. Mainella. I have personally known and 
worked with Ms. Mainella for over 14 years. Ms. Mainella is of 
excellent character and possesses superb qualifications and impeccable 
integrity. She has a ``can do'' attitude and the tenacity to get the 
job done. Ms. Mainella has the innate ability to work with people of 
all walks of life and varying opinions in bringing about consensus. Ms. 
Mainella will serve the National Park Service and our country well.
    I, along with all of the National Society for Park Resources 
members support the nomination of Ms. Fran Mainella and urge you to 
vote yes on her confirmation.
    Thank you in advance for your support.
            Sincerely,
                                   Jerry Hover, Ph.D. CPRP,
                                                         President.
                                 ______
                                 
                          Saint Louis County Parks,
                                        Parks & Recreation,
                                     Saint Louis, MO, June 7, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: I have been informed that Fran Mainella has 
been nominated as the National Park Service Director.
    Fran brings over thirty years of experience in the field of parks. 
Her distinguished career most recently includes her administering the 
Division of Recreation and Parks for the Florida Department of 
Environmental Protection.
    I would urge the Committee to give serious deliberation to Fran as 
our next Park Service Director. She has proven to be a leader in the 
field of Parks, Recreation and Environmental Services. As past 
president of the National Recreation and Park Association, she traveled 
the country meeting and serving the needs of our many members.
    Thank you for your consideration of my request.
            Sincerely,
                                    Genie Zakrzewski, CPRP,
                                                          Director.
                                 ______
                                 
                            City of Largo, Florida,
                           Recreation and Parks Department,
                                           Largo, FL, June 8, 2001.
Senator Bob Graham,
Hart Senate Office Building, Washington, DC.
    Dear Senator Graham: I am a recreation and parks professional in 
the State of Florida and have had the wonderful experience of working 
with Fran Mainella for over fifteen years. During 1987, I served as 
President of the Florida Recreation and Park Association, and Fran 
Mainella was the Executive Director of the association. Fran developed 
a strong and vital foundation for the association which has continued 
to grow with well over 1,300 members. As an active leader with the 
State Legislature, Fran took the recreation and parks profession to a 
more recognized role and asset to the state.
    As Ms. Mainella moved to her next challenge, Director of the 
Florida state park system, she displayed that same leadership and 
professionalism to improve and enhance Florida state parks, and the 
state parks received a gold medal. Fran has also been the President of 
the National Recreation and Park Association. All of these 
accomplishments and strengths can only benefit the national parks. 
Fran's experience will benefit the citizens of the United States 
through her leadership and direction. I strongly endorse Fran for the 
position of the National Parks Service Director, and I know our 
national parks and all of the national parks' employees will excel 
under her leadership.
            Sincerely,
                                            Cathy B. Santa,
                                                          Director.
                                 ______
                                 
                                    City of Dallas,
                                                 Fair Park,
                                         Dallas, TX, June 11, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Mr. Bingaman: This letter is written in support of Fran Mainella as 
she is considered for the position of National Park Service Director.
    I have worked with Fran over the past 12 years through the National 
Recreation and Park Association, American Academy for Park and 
Recreation Administration and the National Symposium.
    I have found her leadership and organizational skills to be some of 
the best I have ever encountered. Fran is also an accomplished public 
speaker and will be a credit to the National Park Service.

                                          Eddie C. Hueston,
                                         Executive General Manager.
                                 ______
                                 
                           East Bay Regional Park District,
                                        Oakland, CA, June 13, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: On behalf of the East Bay Regional Park 
District I wish to express support for the nomination of Fran Mainella 
for the position of National Park Service Director. I have known Ms. 
Mainella for many years through her participation in, and presidency of 
the National Park and Recreation Association.
    The District, a regional parks agency, operates 59 parks exceeding 
90,000 acres of open space and 100 miles of inter-park regional trails, 
in the highly urbanized San Francisco East Bay area. We know that Ms. 
Mainella has a thorough understanding of the needs and values of parks 
and recreation, reflected in part by her commitment to the Land and 
Water Conservation Fund. She achieved no small feat in working her way 
up from local parks in Lake Park and Tallahassee, Florida to become the 
Director of the Florida Department of Environmental Protection. Her 
career also includes service in the parks private sector as Executive 
Director of the Florida Park and Recreation Association. This is a 
candidate who is balanced, knowledgeable and professional based on the 
broad spectrum of her 30 years of experience in the park and recreation 
field.
    We respectfully request your favorable consideration of her 
nomination.
            Sincerely,
                                               Pat O'Brien,
                                                   General Manager.
                                 ______
                                 
                      William Penn Mott, Jr. Memorial Fund,
                                         Orinda, CA, June 15, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, Hart 
        Building, Washington, DC.
    Dear Senator Bingaman: I am honored to write you in support of 
President George Bush's nomination of Fran Mainella as our next 
National Park Service Director.
    I have known and worked with Fran Mainella on park programs and 
issues for many years and I can recommend her without any reservation.
    For 22 years I was General Manager of the highly regarded East Bay 
Regional Park District (Alameda and Contra Costa Counties). When my 
friend and mentor, the late Bill Mott served as National Park Service 
Director, I was appointed by President Reagan and Mott to serve on the 
President's Committee on Americans Outdoors and have since been a 
consultant to many park agencies in this country, as well as Canada, 
Denmark, New Zealand and Australia.
    Fran Mainella has served with distinction as Director of the 
Division of Recreation and Parks for the State of Florida. She has been 
President of the National Recreation and Park Association as well as 
the NRPA's Natural Resources Association. She is among the highly 
regarded park and recreation and environmental leaders in the United 
States. She is a proven administrator and is known for her ability to 
work with people to create unique and lasting solutions to very 
difficult problems. Her work in Florida helped her department win a 
nationally award winning department.
    Fran Mainella would serve the National Park Service with 
distinction as its Director and would benefit both our nation and the 
park service. She has boundless energy, credibility, creativity, and 
innovation.
    I know of no one more deserving of this appointment or more worthy 
of the challenge. I urge you and your Committee to recommend her to the 
full Senate as soon as possible.
            Sincerely,
                                        Richard C. Trudeau,
                                                          Chairman.
                                 ______
                                 
                   Salisbury Parks & Recreation Department,
                                      Salisbury, NC, June 21, 2001.
Senator Frank Murkowski,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Murkowski: I would like to express my support for the 
nomination of Fran Mainella as Director of the National Park Service. 
Fran is a proven leader who brings extensive experience and a broad 
understanding of the public Parks and Recreation field at the local, 
state and national level.
    I have served with Fran as a member of the National Recreation and 
Park Association Board of Trustees, were Fran was elected President of 
the Board. She provided leadership on the association's policy actions, 
communications, education and membership service. During Fran's tenure 
as Association President, NRPA designed and built a new National 
Headquarters that now serves as a focal point for Parks and Recreation 
professionals and citizens nationwide.
    Under Fran's leadership the Florida Division of Parks and 
Recreation was the 1999-2000 Gold Medal Award winner in the National 
Sports Foundation's biennial competition for exemplary state recreation 
and park agencies. She has also served as the Executive Director of the 
Florida Recreation and Park Association.
    Fran encourages excellence through hard work and dedication, and 
will bring out the best in employees to sustain the National Park 
Service. She is a professional who will provide solid leadership for 
the National Park Service and I would highly recommend her confirmation 
by your committee.
            Sincerely,
                                    Gail Elder White, CPRP,
                                     Parks and Recreation Director,
                                 ______
                                 
                Yuma Mesa Irrigation and Drainage District,
                                           Yuma, AZ, June 26, 2001.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: The Yuma Mesa Irrigation and Drainage District 
strongly supports the nomination of John Keys as Commissioner of the 
Bureau of Reclamation, Department of the Interior.
    The District has worked closely with the Bureau of Reclamation for 
the last 60 years in the development and operation of our project in 
the Yuma, Arizona area.
    John Keys is well known and respected by project beneficiaries 
along the Colorado River through his able management of the salinity 
control projects authorized by Congress in the Salinity Control Act.
    John's involvement and experience in the issues relating to water 
and power are well recognized by constituents throughout the West and 
his leadership capabilities will be extremely beneficial to the Bureau 
of Reclamation and its associates.
    John Keys is a very capable professional and the District strongly 
supports his confirmation to the very important position of 
Commissioner of Reclamation.
            Sincerely,
                                             Eldon Paulsen,
                                                         President.
                                 ______
                                 
                       Central Arizona Project Association,
                                        Phoenix, AZ, June 26, 2001.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Hart Senate 
        Office Building, Washington, DC.
    Dear Senator Bingaman: This is to express the strong support of the 
Central Arizona Project Association (CAPA) for the confirmation of John 
Keys as Commissioner of Reclamation.
    The CAPA has been dealing with the Bureau of Reclamation for more 
than 50 years in support of the largest project the Bureau has built, 
the Central Arizona Project.
    We have followed John's long and very productive career in the 
Bureau of Reclamation for many years. His knowledge of western water, 
power and people qualify him especially well for this important post. 
John will bring strong leadership qualities to Reclamation that will 
assist in strengthening its constituent relationships.
    John Keys is a proven, energetic and imaginative professional and 
citizen, deserving of our full support for the very important position 
of the United States Commissioner of Reclamation. We strongly urge his 
confirmation.
            Sincerely,
                                     N.W. ``Bill'' Plummer,
                                                         President.
                                 ______
                                 
                       American Society of Civil Engineers,
                                     Washington, DC, June 26, 2001.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, Dirksen 
        Building, Washington, DC.
    Dear Mr. Chairman: On behalf of the more than 123,000 members of 
the American Society of Civil Engineers (ASCE), I write to recommend 
the confirmation of John W. Keys, III as Commissioner of the Bureau of 
Reclamation (USBR).
    Mr. Keys has 34 years of experience with the USBR. He enjoys an 
outstanding reputation for integrity and for being able to develop 
coalitions and mutually satisfying solutions to water challenges.
    As Pacific Northwest regional director from 1986-1998, Mr. Keys 
managed 24 irrigation projects, 61 major dams, 11 hydroelectric plants 
and other facilities in Idaho, Washington, Oregon, and portions of 
Montana and Wyoming. He developed coalitions that improved management 
of the Columbia River Basin, working closely with the Idaho 
Legislature, irrigation districts, and other federal agencies to meet 
Endangered Species Act water requirements for salmon in the Columbia 
River system, Bull trout in Idaho, snails in the Snake River and 
others. He worked on solutions among Yakima River Basin water interests 
including fisheries, tribes, and farmers. In receiving Interior's 
highest honor--The Distinguished Service Award--in 1995, Keys was 
commended for maintaining open lines of communication and keeping 
interest groups focused on solutions.
    We believe Mr. Keys is superbly qualified to serve as Commissioner 
of the Bureau of Reclamation, and we enthusiastically recommend his 
confirmation to that position.
    Thank you for your attention to our concerns and for your interest 
in ASCE. If the Society can be of further assistance in this matter, 
please do not hesitate to contact Brian Pallasch, Director, Government 
Relations, at our Washington Office, 202-789-2200, or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f39183929f9f9280909bb392809096dd9c8194dd">[email&#160;protected]</a>
            Sincerely yours,
                                      Robert W. Bein, P.E.,
                                                         President.
                                 ______
                                 
                  National Recreation and Park Association,
                                        Ashburn, VA, June 26, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: It is my pleasure to support the nomination of 
Fran Mainella to be director of the National Park Service. We urge the 
Committee to report the nomination favorably and to recommend early 
consideration by the Senate.
    Ms. Mainella will bring a diversity of experience and high level of 
expertise to the National Park Service. She has worked professionally 
in public park and recreation systems at municipal and state levels, 
and is well versed on the missions, roles, opportunities and challenges 
that define the work of the director of the Service. Her leadership of 
the Florida Division of Recreation and Parks and the State Outdoor 
Recreation Liaison Officer make her fully aware of statutory objective 
of the Land and Water Conservation Fund--to enhance the health of the 
American people through resource-based recreation. She will be 
especially sensitive to the park restoration objective of the Urban 
Park and Recreation Recovery Program. The implementation of these 
statutes has been delegated to the director of the National Park 
Service and we believe she will assure their stewardship.
    Ms. Mainella has had exceptional success in creating and sustaining 
intergovernmental and public/private partnerships to extend the value 
of recreation and park services available to Florida's citizens and 
visitors. Similarly, she has fostered a significant increase in 
volunteerism throughout the Florida State Park System and in other 
area's.
    Ms. Mainella is a natural leader with great energy. She has been 
elected by her peers to leadership positions in several park and 
recreation, public management and other organizations. She served the 
National Recreation and Park Association as national president in 1997.
    As a trustee she helped strengthen the Association's education in 
training, communication, and public policy activities. She has been a 
leader in our annual giving program.
    It is my personal privilege to recommend the confirmation of Fran 
Mainella to be the sixteenth director of the National Park Service.
            Sincerely,
                                              R. Dean Tice,
                                                Executive Director.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
